          Semiannual
            report to
            Congress
OCTOBER 1, 00 – MARCH 1, 00




                     OFFICE OF INSPECTOR GENERAL
                     U.S. Department of Transportation
This page intentionally left blank
Table of Contents

From the Inspector General  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . v
Top Management Challenges Facing DOT  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1
Audits and Investigations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 5
    Aviation and Special Programs  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 5
    In Focus: Staffing Critical FAA Workforces  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 5
    In Focus: Combating DBE Fraud In Southeastern Pennsylvania  .  .  .  .  .  .  .  .  .  .  .  . 13
    Surface and Maritime Programs  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 23
    In Focus: Emphasizing the Benefits of Value Engineering in the
         Federal-Aid Highway Program  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 23
    Competition and Economic Analysis  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .37
    Financial and Information Technology  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .41
    Department-Wide Issues  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 47
Other Accomplishments  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .49
Work Planned and in Progress  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 51
    Aviation and Special Programs  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .51
    Surface and Maritime Programs  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .53
    Competition and Economic Analysis  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 55
    Financial and Information Technology  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 56
Statistical Performance Data  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .59
    Summary of Performance  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 59
    Audits  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 60
    Completed OIG Reports  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 60
    OIG Reports with Recommendations that Questioned Costs  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .61
    OIG Reports with Recommendations that Funds Be Put to Better Use  .  .  .  .  .  . 62
    OIG Reports Recommending Changes for Safety, Economy, or Efficiency  .  .  . 63
    Management Decisions Regarding OIG Recommendations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 64
    OIG Published Reports  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 65
    Other Audit Work Products  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 71
    OIG Congressional Testimonies  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 72
    Status of Unresolved Recommendations Over 6 Months Old  .  .  .  .  .  .  .  .  .  .  .  .  .  . 73
    Application of Audit Project Hours by Operating Administration  .  .  .  .  .  .  .  .  .  . 77



                                                                                                                                                                                                            Photo Courtesy of sLsDC
    Investigations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 78
    Judicial and Administrative Actions  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 78
    Profile of All Pending Investigations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 79
    Application of Investigative Project Hours by Priority Area  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 79
    Application of Investigative Project Hours by Operating Administration  .  .  .  . 80
Awards and Recognition  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 81
In Memoriam  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .100
Mission and Organization  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .102
Contacts  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .104
Abbreviations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .105



	        	                                                                                                                                                                                          	 iii
This page intentionally left blank
                               From the Inspector General

I t is my honor and privilege to present the Department of Transportation Office of Inspector General’s
  Semiannual Report to Congress for the 6-month period ending March 31, 2007 . This is my first
Semiannual Report since being sworn in as Inspector General on October 27, 2006 . The audit and
investigative activities described in the pages that follow are a testament to the exceptional caliber and
commitment of our highly professional auditors, investigators, analysts and legal staff, as well as all of
those OIG employees working behind the scenes .

During this semiannual period, we issued 43 reports with 169 recommendations . Our investigations
resulted in 73 convictions . Our work resulted in financial recommendations totaling $864,808,000 and
fines, restitutions and recoveries totaling $61,294,216 . We testified before Congress on eight occasions,
primarily on the safety of our nation’s transportation system, including aviation, motor carrier and
railroad safety . We also testified on FAA’s finances, Amtrak, and the top management challenges facing
the Department .

I would like to express my gratitude to Secretary Peters, Deputy Secretary Barrett, the Department’s
Secretarial officers, the modal administrators, and Members and staff of Congress for their support
during the past 6 months . They fully appreciate and support the role played by an independent Inspector
General .

Finally, we honor the lives lost and service to our country of two long-time staff members who passed
away during this reporting period, Lyn Banagan and John Heires . Together, they gave 33 years to our
office and played key roles in our many successes . We are grateful for their service and miss them
every day .



Very Respectfully,



Calvin L . Scovel III




	   	                                                                      Letter	from	the	Inspector	General	   
This page intentionally left blank
Top management Challenges Facing dOT
We recently released our eighth annual report
on the top management challenges for DOT in                      FY 00 TOP MANAGEMENT
FY 2007 . In his March 6, 2007, testimony, the                         CHALLENGES
Inspector General highlighted the 10 challenges we
reported and discussed major issues facing DOT               •   Defining, Developing, and Implementing Strategies to Improve
in terms of establishing funding requirements for                Congested Conditions
aviation and intercity passenger rail programs;              •   FAA Reauthorization
addressing challenges in the areas of aviation and           •   Responding to National Disasters and Emergencies
surface safety; and strengthening contract, grant,           •   Strengthening Efforts To Save Lives by Improving Surface
and project oversight .                                          Safety Programs
                                                             •   Aviation Safety
establishing Funding requirements
                                                             •   Making the Most of the Federal Resources that Sustain Surface
for Aviation and Intercity Passenger rail                        Transportation Infrastructure Improvements
                                                             •   Achieving Reform of Intercity Passenger Rail
A major challenge for DOT and Congress is                    •   Improving Acquisition and Contract Management
reaching consensus on how to finance the FAA and             •   Protecting, Monitoring, and Streamlining Information
developing efforts to advance the next generation                Technology Resources
air traffic management system . This will be critical        •   Strengthening DOT’s Coordination of Research, Development,
as both the current excise taxes and the underlying              and Technology
authorization that support aviation programs expire
in September 2007 . DOT must also work with
Congress and others to reauthorize and realign the      (1) providing Congress with reliable cost estimates
intercity passenger rail system to match funding to     for the next generation air traffic management
the service to be provided .                            system; (2) developing detailed staffing ranges
                                                        and cost estimates for executing its Controller
     Aviation: FAA requested $14 .1 billion for         Workforce Plan; and (3) improving the accuracy
FY 2008 and is currently funded through a               of financial accounting data that feed the cost
combination of excise taxes (primarily a tax on         accounting system .
airline tickets) and the General Fund . In February,
DOT released a proposal for reforming how FAA is             Intercity Passenger Rail: In the past
financed . The proposal includes a shift to             year, modest progress was made on our
cost-based user fees, modifications to the fuel tax,    recommendations to reduce Amtrak’s costs,
and a continuing General Fund contribution . It         but the current system remains unstable . A key
also calls for a new user board and adjustments         challenge this year is achieving needed reforms
to how airport projects are financed . There is         while improving fiscal discipline . DOT must
disagreement about the types of fees to be charged,     work with Congress and other stakeholders
who should pay for what, and how—if at                  to break the cycle of appropriations without
all—congressional oversight of FAA spending             authorization for Amtrak . Otherwise, it will
should be altered .                                     again fall to Congress to impose fiscal discipline
                                                        on Amtrak—to that end, Amtrak would need
    Regardless of the financing mechanism               $1 .35 billion in FY 2008 . Our long-term
ultimately decided upon, there are several issues       proposal for financing intercity passenger rail
that FAA will need to address . These include:

	   	                                                               Top	Management	Challenges	Facing	DOT                         1
service focuses on three main goals:                             allocation method to ensure that inspectors are
(1) continuous improvements in the                               located where they are most needed . A recent
cost-effectiveness of services provided;                         National Research Council study validated
(2) devolution of the power to determine those                   concerns that we have also reported—that
services to the states; and (3) adequate and stable              FAA’s current method of allocating inspectors
sources of Federal and state funding .                           is antiquated and must be redesigned to
                                                                 effectively target inspector resources . The
Transportation Safety                                            Council also stressed that FAA must ensure
                                                                 that its safety inspectors are sophisticated
The safety of the Nation’s transportation system                 database users with knowledge of system safety
is DOT’s number one goal . DOT must ensure                       principles and an analytical approach to
that FAA is performing oversight that effectively                their work .
utilizes aviation inspector resources and maintains
aviation system safety . DOT must also strengthen            •   FAA has taken decisive actions to reduce
efforts to save lives by improving surface safety                runway incursions, such as conducting
programs .                                                       numerous safety evaluations at problem
                                                                 airports. The total number of runway
    Aviation Safety: Challenges for FAA are                      incursions decreased from a high of 407 in
performing oversight that effectively utilizes FAA               FY 2001 to 330 in FY 2006, and the most
inspection resources and maintaining aviation                    serious incidents have decreased from a high
system safety . Key actions include moving forward               of 69 in FY 1999 to 31 in FY 2006 . Since 2003,
with its risk-based oversight systems for air carriers           the number of runway incursions has leveled
and external repair facilities and reducing the risks            off, but serious incursions continue to occur .
of accidents on the ground and in the air .                      Recent incidents at several large airports
                                                                 highlight the potential safety risks associated
•    FAA is still refining and implementing its                  with runway incursions . We plan to issue a
     risk-based oversight system for air carriers                report on FAA’s actions to address runway
     and plans to transition the system to the                   incursions later this year .
     remaining 71 carriers by December 2007.
     In response to our recommendations, FAA                      Surface Safety: Over the last several years,
     developed and implemented a risk-based                  Congress has provided increased funding
     oversight approach to FAA-certificated repair           to enhance surface transportation safety
     stations . FAA also needs to develop a more             programs—the President’s FY 2008 budget
     effective oversight system process for critical         proposed $2 .4 billion . To its credit, DOT has
     maintenance performed at non-certificated               taken actions to enhance surface safety . However,
     repair facilities because there are significant         more needs to be done to save the lives of highway
     differences in regulatory requirements for              and railroad travelers . Despite improvements,
     these facilities versus FAA-certificated facilities .   over 43,000 people lost their lives on the Nation’s
                                                             highways in 2005, and DOT has set an ambitious
•    FAA must closely monitor inspector                      goal of reducing the highway fatality rate from
     retirements and take steps to hire and train            1 .45 per 100 million vehicle-miles traveled in
     the next generation of safety inspectors.               2005, to 1 .0 per 100 million vehicle-miles traveled
     Since FAA will never have enough inspectors             by 2011 . Our current work points to several key
     to oversee all aspects of aviation operations,          actions for DOT: (1) improving state accountability
     it must develop a reliable staffing model and           to maximize efforts to reduce alcohol and drug

	   Semiannual Report to Congress
impaired-driving fatalities; (2) building on            is essential to ensure that resources are used
successful efforts to more effectively enforce          effectively . Key challenges for DOT include:
motor carrier safety regulations and improve            (1) strengthening financial management oversight
data quality; (3) undertaking more focused and          of institutions performing research under DOT
targeted rail safety initiatives to reduce the number   cooperative agreements and grants; (2) promoting
of train accidents and fatalities; and (4) ensuring     increased vigilance and enhanced oversight of
the integrity and future modernization of the           FAA’s acquisition and contract management
Commercial Drivers License (CDL) program .              practices; and (3) ensuring the maintenance of
                                                        high ethical standards among DOT employees .
Contract, Grant, and Project Oversight
                                                            Emphasizing Project Oversight To Make the
Ensuring that acquisition activities and                Most of Federal Resources: We see three issues
transportation projects are conducted efficiently       for continued management emphasis regarding
and effectively and protecting taxpayer dollars         DOT’s key infrastructure projects: (1) Federal
from fraud and abuse are top DOT priorities .           Highway Administration (FHWA) must ensure
DOT must improve its acquisition and contract           that initiatives to strengthen its oversight of
management to reduce costs and eliminate                Federal highway funds are implemented effectively
improper payments and emphasize project                 so that major projects are delivered on time, within
oversight to ensure that it does not pay more           budget, and free from fraud; (2) FHWA’s oversight
than the value of goods delivered and services          must include actions to ensure that highway
performed .                                             tunnels are safe for the driving public; and
                                                        (3) Federal Transit Administration (FTA) must
    Improving Acquisition and Contract                  continue exercising vigilant oversight to ensure
Management: In recent years, DOT has                    that large and complex transit infrastructure
strengthened its oversight of grants, and a similar     projects are completed on time and within budget .
focus is essential for the contracting activities       Over the next year, we will continue to monitor
that it directly carries out . In FY 2006, about        key projects—the Central Artery/Tunnel project,
$55 billion was obligated for grants and direct         the Lower Manhattan Recovery Project, and the
procurement . Of that amount, $6 billion was            Dulles Corridor Metro Rail Project—to ensure
obligated for direct procurement . With an              that they remain on track .
investment of this size, active contract monitoring




	   	                                                              Top	Management	Challenges	Facing	DOT	   
This page intentionally left blank
                                                                     Audits and Investigations

Aviation and Special Programs




In FOCuS: STAFFInG CrITICAl FAA WOrkFOrCeS



S
       ince 2003, we have issued six audit reports              FAA developed a comprehensive workforce plan
       and testified numerous times before Congress             to address this and issued the first in a series
       on staffing issues within two key FAA                    of annual reports to Congress . FAA issued its
workforces—air traffic controllers and aviation                 second report in June 2006 . We have conducted
safety inspectors . Ensuring that there are enough              two reviews of FAA’s progress in implementing its
adequately trained and certified professionals                  controller workforce plan .
in these two fields is critical to the safety and
efficiency of the National Airspace System and will                 In May 2005, we reported that FAA’s workforce
remain a high priority for FAA and the Congress                 plan represented a good first step in that it clearly
over the next 10 years .                                        laid out the magnitude of the issue and established
                                                                planned actions for meeting the challenge .1
                                                                However, we also reported that to ensure Congress,
Air Traffic Controllers                                         DOT, and OMB have an accurate picture of the
                                                                10-year plan and the resources required, future
FAA is facing the significant challenge of                      reports to Congress would require greater detail in
hiring and training over 11,800 new controllers                 terms of FAA’s strategy for executing key elements
through FY 2015 as controllers hired after the                  of the plan, the total associated costs, and progress
1981 strike begin retiring . In December 2004,                  in meeting established milestones .

1 . OIG Report AV-2005-060 “Report on Controller Staffing: Observations on FAA’s 10-Year Strategy for the Air Traffic
Controller Workforce Report Number” May 26, 2005 .


	   	                                                                                   Staffing	Critical	FAA	Workforces	   
Audits and Investigations (continued)

     In February 2007, we reported that FAA
continued to make progress in implementing
key initiatives of its controller workforce plan .2
For example, FAA had significantly improved its
hiring process by centralizing it and had made
progress in reducing the time and costs to train
new controllers primarily through greater use
of simulator training at the FAA Academy . We
also found that FAA was making progress in
implementing our 2004 recommendations3 on
placing and training new controllers, such as
implementing a new national database of
on-the-job training (OJT) statistics . However,
we also reported that FAA needs to make further
progress in several key areas . Those included:




                                                                                                                               Photo Courtesy of NAtCA
•    Completing validation of accurate
     facility-level staffing standards. Planning by
     location is critical because FAA has over 300
     air traffic control facilities with significant
     differences in the types of users they serve,              •   Establishing baseline metrics to measure
     the complexity of airspace they manage, and                    the effectiveness of controller productivity
     the levels of air traffic they handle . Without                initiatives. FAA introduced several
     accurate facility-level planning, FAA runs the                 initiatives in its 2004 Controller Workforce
     risk of placing too many or too few controllers                Plan that were intended to improve workforce
     at key locations and could miss an opportunity                 efficiency and controller productivity . FAA
     to address long-standing concerns about                        achieved a 3 percent productivity gain
     facility staffing imbalances .                                 in FY 2005 by decreasing total controller
                                                                    staffing by 3 percent, a goal established in
•    Continuing efforts to reduce the time and cost
                                                                    the 2004 Plan . However, it was unclear what,
     associated with OJT. In 2004, we reported that
                                                                    if any, additional impact FAA’s productivity
     new controllers were often being used to staff
                                                                    initiatives had on the reduced staffing
     positions once they were checked-out on the
                                                                    because FAA did not establish baseline
     sector, which caused lapses in the OJT process .
                                                                    metrics for measuring the effectiveness of
     Those gaps increase the time it takes new
                                                                    those initiatives .
     controllers to become fully certified to control
     air traffic at their assigned facility and increase        •   Identifying the estimated total cost of the
     the associated costs of OJT . We found those                   plan. The cost of hiring and training over
     lapses continue to occur .                                     11,800 new controllers will be substantial,


2 . OIG Report AV-2007-032 “Controller Staffing: FAA Continues To Make Progress in Implementing Its Controller Workforce
Plan, but Further Efforts Are Needed in Several Key Areas” February 9, 2007 .
3 . OIG Report AV-2004-060 “Opportunities To Improve FAA’s Process for Placing and Training Air Traffic Controllers in Light
of Pending Retirements” June 2, 2004 .


	   Semiannual Report to Congress
    particularly since it currently takes new                place its inspector resources where they are most
    controllers 2 to 5 years to become fully                 needed . FAA has made at least two attempts to
    certified . During that time, FAA incurs the             develop a staffing model to determine the number
    cost of the trainee’s salary and benefits as well        of inspectors needed and where they should be
    as the cost of the salaries and benefits of the          located . Neither model, however, provided FAA
    certified controllers who instruct them .                with an effective approach to allocate inspector
                                                             resources .
     We made a series of recommendations
intended to correct the deficiencies we identified .             At the request of the House Transportation
FAA concurred with our recommendations and                   and Infrastructure Committee, Subcommittee
is taking appropriate actions to address them .              on Aviation, in September 2006, the National
We continue to monitor FAA’s ongoing efforts                 Research Council completed a study of FAA’s
in addressing this challenge and will continue to            current methods for allocating inspector resources .
periodically report on the Agency’s progress .               This study validated the concern expressed in
                                                             many of our past reports—that FAA’s current
Aviation Safety Inspectors                                   method of allocating inspectors is antiquated and
                                                             must be redesigned to effectively target inspectors
On March 29, 2007, the Inspector General                     to those areas of higher risk .
testified before the House Transportation and
Infrastructure Committee, Subcommittee on                        During our June 2005 review of FAA
Aviation, concerning FAA oversight of aviation               oversight of financially distressed and low-cost
safety .4 A key concern identified during that               air carriers, we found inconsistencies in the way
hearing was ensuring that FAA’s inspection                   inspectors were allocated among field offices .5 For
workforce is adequately staffed . As with its                example, two FAA offices had the same number
controller workforce, FAA faces substantial safety           of inspectors assigned to oversee two air carriers
oversight challenges due to the potential attrition          even though one of the carriers had twice as many
in its inspector workforce . FAA currently has               aircraft and 127 percent more flights than the
3,865 inspectors to oversee domestic and foreign             other . We also found that inspectors were not
aspects of the largest, most complex aviation                assigned to the locations where they were needed
system in the world, and 44 percent of these will be         most and that some FAA inspectors had very
eligible to retire by 2010 .                                 substantial workloads .

    As a result of the extensive changes occurring               Until FAA develops a valid staffing model, it
in the aviation industry, it is imperative that FAA          will not be able to effectively use its resources .




4 . OIG Testimony CC-2007-035 “FAA Oversight of Air Carrier Outsourced Maintenance” March 29, 2007 .
5 . OIG Report Number AV-2005-060 “Oversight of an Industry in Transition” June 3, 2005 .




	   	                                                                               Staffing	Critical	FAA	Workforces	   
Audits and Investigations (continued)


AudITS
Letter to Senator Boxer Regarding Recent              Follow-Up Review: Performance of
Series of Air Traffic Control Outages in              U.S. Airlines in Implementing Selected
Southern California                                   Provisions of the Airline Customer Service
November 7, 2006                                      Commitment
                                                      November 21, 2006
At the request of Senator Barbara Boxer, we
examined equipment failures at Los Angeles            We issued our final report, “Follow-Up Review:
Center and problems at Los Angeles International      Performance of U .S . Airlines in Implementing
Airport (LAX) with both a precision landing           Selected Provisions of the Airline Customer
system and a safety system for alerting controllers   Service Commitment,” which was requested
of potential accidents on runways . We found that     by the Chairman of the House Committee on
the FAA is taking short-term corrective actions       Transportation and Infrastructure, Subcommittee
regarding the July 18 power outage at Los Angeles     on Aviation . We found that the airlines need to:
Center . We also found that: (1) multiple factors     (1) resume efforts to self-audit their customer
contributed to the instrument landing system          service plans; (2) emphasize to their customer
failures at LAX in July and August; and (2) the       service employees the importance of providing
radar-based safety alert system (designed to          timely and adequate flight information; (3) focus
provide air traffic controllers with an automatic     on training for personnel who assist passengers
alert when the system predicts a runway incursion)    with disabilities; (4) provide straightforward,
was disabled at LAX when incidents occurred on        comprehensive reporting on frequent flyer award
a runway and a taxiway on July 26 and August 14,      redemptions; and (5) improve the handling of
respectively .                                        “bumped” passengers .
    Our work shows that a national program is
required to solve the power outage problem that
surfaced at Los Angeles Center and prevent
reoccurrence at other locations . Given FAA’s
problems in identifying the causes of the
instrument landing systems failures, it must
maintain a proactive monitoring and
troubleshooting effort on this system .

    Runway safety remains an important issue .
Even if the safety alert system had been activated
on August 14, it would not have given an alert
because it does not monitor taxiway incidents .
On September 30, the system was operational
and warned of a close call between two aircraft
on the same runway . We are including LAX in
our ongoing review of FAA’s actions to identify
and correct the causes of runway incursions at
Boston Logan, Chicago O’Hare, and Philadelphia
International airports .

	   Semiannual Report to Congress
    We also found that while the Department               FAA Continues To Make Progress in
enforces air travel consumer protection rules,            Implementing Its Controller Workforce
it needs to improve its oversight of such rules,          Plan, But Further Efforts Are Needed in
including its efforts to monitor compliance               Several Key Areas
with the terms of conditions of enforcement               February 9, 2007
actions . We made a series of recommendations
to strengthen the Department’s oversight and              We reviewed FAA’s progress in implementing
enforcement of air traveler consumer protection           key initiatives of its Controller Workforce Plan
rules . The Department generally agreed with our          and found that the Agency has made significant
recommendations .                                         improvements by centralizing its hiring process
                                                          and reducing the time and costs to train new
Oversight of Airport Improvement Program                  controllers, primarily through greater use of
Hurricane Grants                                          simulator training at the FAA Academy and
December 13, 2006                                         a new national database to track on-the-job
                                                          training statistics . However, FAA still needs
Our review of FAA’s oversight of funds provided           to: (1) complete its validation of accurate
to airports to repair damage caused by Hurricanes         staffing standards for over 300 locations;
Katrina and Rita determined that FAA responded            (2) continue its efforts to reduce the time
quickly and awarded 10 grants totaling nearly             and costs associated with on-the-job training;
$40 .5 million to Gulf Coast airports damaged             (3) refine its methodology for projecting
by Hurricanes Katrina and Rita . However, FAA             controller retirements; (4) establish baseline
planned no heightened oversight of grant fund             metrics to measure the effectiveness of controller
expenditures . The scope of the damage caused by          productivity initiatives; and (5) identify the
the hurricanes and the lack of planning by FAA and        estimated total costs of the plan .
the airports before the grants were awarded created
an increased potential for fraud, waste, and abuse             Our recommendations focused on the specific
of grant funds .                                          actions that FAA needs to take to ensure that
                                                          its stakeholders have a complete and accurate
     As a result of the concerns we identified, FAA       picture of the ongoing 10-year strategy for the
issued guidance in March 2006 to enhance its              controller workforce and the resources that will
oversight of Airport Improvement Program funding          be required . FAA generally concurred with our
for hurricane repairs . FAA also withdrew 7 of            recommendations and is taking appropriate action
the 10 grants to allow airports time to obtain bids       to address them . Additional information can be
and to permit them to benefit from October 2005           found on page 5 of this semiannual report .
legislation that eliminated requirements for airport
matching funds and expanded the type of projects          Joint Planning and Development Office:
eligible for grant funding . We recommended that          Actions Needed To Reduce Risks With the
FAA develop a plan to verify that its district office     Next Generation Air Transportation System
personnel are effectively implementing the new            February 12, 2007
guidance requiring that grantees promptly submit
more detailed expenditure reports and that FAA            In response to a request from the Chairman and
airport project managers verify the appropriateness       Ranking Member of the House Transportation
of grant fund expenditures and conduct required site      and Infrastructure Committee, Subcommittee
visits to review the progress of airport projects . FAA   on Aviation, we reported on FAA’s Joint Planning
agreed with our findings and recommendations .            and Development Office (JPDO) and its progress

	   	                                                                          Aviation	and	Special	Programs	   
Audits and Investigations (continued)




                                                                                                             Photo Courtesy of NAtCA
in aligning plans for the Next Generation Air        FAA’s FY 2008 Budget Request: Key
Transportation System to meet the anticipated        Issues Facing the Agency
demand for air travel . We found that the JPDO       February 14, 2007
has established ambitious, much-needed goals to
create a system that will handle three times more    In testimony before the House Transportation
air traffic . The JPDO’s congressionally-mandated    and Infrastructure Committee, Subcommittee
mission to leverage resources at other agencies is   on Aviation, the Inspector General discussed key
critical given that FAA conducts little long-term    issues facing FAA as Congress debates the Agency’s
air traffic management research and the fact that    reauthorization and its FY 2008 budget request .
most of the Agency’s current $2 .5 billion capital   Regardless of the funding mechanism ultimately
account goes toward keeping things running           decided upon by Congress and the Administration,
(i .e ., sustainment) . FAA agreed to implement      several issues require Agency attention and will
our recommendations, which focused on actions        shape FAA’s funding requirements over the next
FAA and the JPDO need to take to establish cost      several years . These include: (1) addressing an
estimates, quantify benefits, align research among   expected surge in air traffic controller retirements;
agencies, develop a service roadmap, reduce risk     (2) having sufficient safety inspectors to provide
with next generation initiatives, and speed the      oversight of a dynamic aviation industry;
introduction of new capabilities into the National   (3) keeping existing modernization efforts on
Airspace System .                                    track and reducing risks with the Next Generation

10	 Semiannual Report to Congress
Air Transportation System; and (4) using the cost          applied . Based on the results of our sample of
accounting system to improve operations .                  staffing data, we can statistically project (with a
                                                           95 percent confidence level) that approximately
Review of Operations, Capacity, and Runway                 2,563, or 11 .1 percent of the 23,002 midnight shifts
Safety Areas at Chicago Midway Airport                     (at the 62 facilities in our universe) were staffed
February 15, 2007                                          with only one controller between August 28, 2005,
                                                           and September 2, 2006 . We also found that:
At the request of Representative Jesse L . Jackson Jr .,   (1) even though two controllers may have been
we reviewed Chicago Midway Airport’s operations,           scheduled on a midnight shift, there were no
capacity, and runway safety areas . We found that:         assurances that they were both on position and
(1) Midway Airport has sufficient capacity to safely       (2) prior to the Comair accident, FAA had no
handle its current level of aircraft operations;           controls in place to ensure that facilities had
and (2) the runways at Midway Airport did not              consistently implemented the verbal guidance
have adequate runway safety areas . However, in            and were uniformly complying with it .
September 2000, FAA had determined that it was
not practicable for Midway to achieve the Agency’s              Since the Comair accident, FAA has
runway safety area standards . Since that time,            formalized the verbal guidance into a written
changes to FAA guidance and recent technological           order . We recommended that FAA communicate
advancements have made it possible for Midway              all future guidance changing existing air
to install alternative runway safety arresting             traffic policies in writing to ensure uniform
systems that meet FAA’s guidelines . These systems         implementation and compliance . We also
should be complete on all of Midway’s commercial           recommended that FAA develop and implement
runways by the end of this year .                          appropriate policies and procedures to ensure
                                                           that facilities comply with the new order . FAA
Review of Staffing at FAA’s Combined Radar                 concurred with our recommendations and is
Approach Control and Tower With Radar                      taking appropriate actions to address them .
Facilities
March 16, 2007                                             Letter to Senator Boxer Regarding Runway
                                                           Incidents at Los Angeles International
At the request of Representative James Oberstar,           Airport
then Ranking Democratic Member of the House                March 22, 2007
Committee on Transportation and Infrastructure,
and Representative Jerry Costello, then Ranking            At the request of Senator Barbara Boxer, we
Democratic Member of the House Transportation              reviewed runway incidents at LAX . We found
and Infrastructure Committee, Subcommittee                 that from FY 2003 through FY 2006, 32 runway
on Aviation, we reviewed staffing at FAA’s                 incursions occurred at LAX; of these, 81 percent
combined radar approach control and tower with             were caused by pilot deviations . Most of the pilot
radar facilities after the fatal Comair accident in        deviations occurred because pilots failed to hold
Lexington, Kentucky, in August 2006 .                      short of a runway as instructed by controllers .
                                                           We also found that runway configuration appears
    We found that FAA issued verbal guidance               to be a primary factor contributing to runway
in August 2005 reiterating that during midnight            incursions at LAX and that the airport is in the
shifts at facilities with these combined functions,        process of mitigating this through construction
two controllers should be on duty; however, the            of a new taxiway between two existing runways .
guidance was misinterpreted and inconsistently             The results of our review at LAX and three other

	   	                                                                           Aviation	and	Special	Programs	 11
Audits and Investigations (continued)

large commercial airports reviewed in an audit of             While air carriers have outsourced
runway incursions will be issued later this year .        maintenance for years to take advantage of
                                                          lower repair costs and specialized expertise, the
Inspector General Testifies Before the                    practice has become more pronounced in recent
House Aviation Subcommittee Regarding                     years . From 1996 to 2005, the amount that air
FAA’s Oversight of Outsourced Air Carrier                 carriers spent on outsourced maintenance
Maintenance                                               increased from 37 percent to 62 percent, or
March 29, 2007                                            nearly $3 .4 billion of the $5 .5 billion spent on
In testimony before the House Transportation              maintenance . FAA has faced challenges in
and Infrastructure Committee, Subcommittee on             effectively shifting its oversight with all the
Aviation, the Inspector General discussed areas           changes that air carriers are making . Although
for strengthening FAA’s oversight of outsourced           it has taken a number of steps to improve its
air carrier maintenance . The Inspector General           oversight, FAA must still remain vigilant in:
noted that the United States has maintained a             (1) advancing risk-based oversight systems for
remarkable safety record despite many changes             air carriers and repair stations; (2) determining
occurring in the aviation industry . For example,         where the most critical maintenance is
as air carriers continue to struggle for profitability,   performed and how it should be monitored;
they are aggressively cutting costs by reducing           and (3) ensuring that inspectors are well-
in-house staff, renegotiating labor agreements,           positioned and properly trained to adequately
and increasing the use of external repair facilities .    oversee maintenance outsourcing .




1	 Semiannual Report to Congress
In FOCuS: COmBATInG dISAdvAnTAGed BuSIneSS enTerPrISe FrAud
          In SOuTheASTern PennSylvAnIA



N
           early 25 years ago, Congress enacted the    participation criteria to obtain DOT-assisted
           first Disadvantaged Business Enterprise     contracts . In these cases, DBEs typically either do
           (DBE) statutory provision requiring         not perform the work or they yield total control of
that DOT ensure that at least 10 percent of the        personnel and operations to the prime contractors .
funds authorized for Federal highway and transit       This crime defrauds the integrity of the DBE
financial assistance programs be expended              program and harms legitimate, law-abiding prime
via DBEs . FAA also maintains a separate DBE           contractors and DBEs by defeating efforts to ensure
program for concessions in airports . OIG has          a “level playing field” in which DBEs can compete
historically placed significant emphasis on DBE        fairly for contracts . The cases highlighted in this
fraud nationwide and will continue to do so .          article began about 5 years ago with the formation
During the past 6 months, OIG special agents           of two Federal law enforcement task forces: one led
worked with the FBI, the Internal Revenue Service,     by OIG that focused on investigating construction
U .S . Attorney’s Office prosecutors, and others to    fraud and the other led by the FBI that focused on
focus their efforts on exposing and shutting down      investigating public corruption .
several DBE fraud schemes that adversely affected
public trust and the DOT-assisted transit and          Public Official Accepted Bribes
airport programs in Southeastern Pennsylvania .        to Falsely Certify dBes
    DOT policy implemented after Congress              Task force agents identified a public official who
passed DBE legislation helps small businesses          allegedly accepted bribes for falsely certifying
owned and controlled by socially and                   that small businesses were owned and controlled
economically disadvantaged individuals, including      by minorities or women, thereby qualifying the
minorities and women, participate in contracting       businesses for contracting opportunities under
opportunities created by DOT financial assistance      the DBE program . During a sting operation, this
programs . Those who receive DOT financial             official was caught “red-handed” accepting cash
assistance, namely state and local transportation      from an undercover agent in return for favorable
agencies, are required to establish goals for the      action on a DBE application . To mitigate his
participation of disadvantaged entrepreneurs and       criminal sentence, the official agreed to cooperate
certify that DBE firms meet Federal eligibility        with the Government and identified a false DBE:
standards . Small, disadvantaged firms wanting to      Philly-Wide Interiors . Based on his assistance to
participate in the DOT-assisted contracts of state     the task force, he was sentenced to serve 3 years
and local transportation agencies must apply for       probation and $1,500 in fines .
and receive certification as a DBE . To be certified
as a DBE, a firm must be a small business owned            The owner of Philly-Wide Interiors wanted
and controlled by socially and economically            his new business to compete as a DBE, but it did
disadvantaged individuals .                            not qualify under Federal regulations because
                                                       he was a white male . He persuaded his wife, a
   DBE fraud often involves prime contractors          full-time nurse, to apply for DBE certification as
who conspire with “false front” or “pass-through”      the owner and manager of Philly-Wide Interiors
DBE firms to fraudulently meet required DBE            and illegally paid for a favorable DBE certification

	   	                                                   Combating	Disadvantaged	Business	Enterprise	Fraud	 1
Audits and Investigations (continued)

decision by providing cash and other valuables to      also agreed to a 5-year debarment period . The
a DBE certifier . The arrangement initially paid off   owner of the other contractor—Tulio Landscaping
handsomely with a $228,000 demolition contract         Incorporated—was found guilty at trial of
on a Southeastern Pennsylvania Transportation          conspiracy and mail fraud for his role in the
Authority (SEPTA) transit project; however, this       scheme . He was sentenced to 15 months in prison,
success was short-lived and stopped abruptly by        24 months of supervised release and was fined
the investigation . A task force operation recorded    $40,000 . In addition, he and his company were
the owner making incriminating statements to           debarred by FTA from Government contracting
an informant that provided critical evidence, and      for 3 years, and his company was fined $103,000 .
in August 2006 the owner and his company were          The owner of Pullins Trucking was not prosecuted
sentenced to pay more than $135,000 in fines and       because he was terminally ill and subsequently
restitution and received 8 years probation for         died; however, FTA debarred his company for
bribery and filing a false tax return . In addition,   3 years .
the FTA debarred both from Government
contracting for 3 years .                              kickbacks Paid for no-Work dBe
                                                       Subcontract at Airport
dBe False Front Conspiracy Shut down
                                                       Other fraud schemes involved public corruption,
While the Philly-Wide Interiors investigation was      illegal influence peddling, and bribery and
underway, task force agents identified another DBE     kickbacks on DBE-related contracts at the
fraud allegation involving excavation contracts        Philadelphia International Airport, including
on FTA-funded transit projects . Criminal              the FAA-regulated airport concessions contracts .
investigators initially discovered that the owner      These contracts allow companies to provide
of an excavating and landscaping business near         services and operate food and beverage and retail
Philadelphia had altered checks to falsely claim       stores at the airport, usually for a guaranteed
that a DBE performed $67,995 in work when,             amount of revenue for the airport . Using
in fact, the work was actually performed by a          specialized investigative techniques, task force
non-DBE subcontractor . Further investigation          agents obtained information about payoffs that
identified a much bigger scheme involving two          were allegedly part of a “pay-to-play” culture in
companies paying the same DBE—Pullins                  awarding contracts at the airport .
Trucking—to use its name to obtain DBE-related
transit contracts when work was actually being             One such contract was an airport cellular
performed by prime contractor employees . Pullins      phone tower concession valued at more than
received only a few thousand dollars for its part      $1 million, under which Keystone Information
in the fraud scheme—providing fake invoices            and Financial Services had been awarded
and billing for work that was not done—while           a DBE subcontract valued at $102,500 over
the prime contractors profited substantially by        5 years . Keystone’s owner ran a racketeering
winning contracts valued at more than $8 million .     enterprise that defrauded numerous
                                                       individuals, institutions, and Government
    The larger of the two prime contractors—           entities throughout the Philadelphia area . The
JMG Excavating and Construction—ultimately             prime contractor’s manager made certain that
pleaded guilty to mail fraud and was sentenced         Keystone received the subcontract and agreed
to pay $1 .27 million in restitution and serve         that Keystone would not be required to perform
5 years probation . JMG and its Vice President         any work related to the installation, leasing,


14	 Semiannual Report to Congress
and management of cellular antenna sites at             campaigns and action committees supporting local
the airport . In return, Keystone’s owner would         politicians, including the mayor of Philadelphia .
kick back $500 from each of the $1,700 monthly
commissions he received to the manager . The                In 2006, the Skysites consultant and the DBE
manager pleaded guilty to a racketeering-related        firm were indicted on charges of conspiracy, mail
felony and was sentenced to serve 3 years               fraud, and wire fraud . The indictment alleged
probation and pay a $10,000 fine . Keystone’s           that the DBE company submitted a fake $30,000
owner went to trial and was found guilty on             invoice to Skysites to fund three separate $10,000
numerous racketeering and related charges for           contributions from individuals to a political action
illegal money-making schemes, including this            committee supporting the Philadelphia mayor .
one . He was sentenced to more than 7 years             The indictment also alleged that Skysites officials
in prison and 5 years of supervised release             conspired to pay the consultant a $10,000 sham
and was ordered to pay more than $650,000 in            bonus to disguise the use of corporate funds for
restitution .                                           a contribution to the mayor’s campaign fund .
                                                        Four defendants pleaded guilty to the corruption
Corruption and Fraud in the Airport                     scheme and were sentenced to serve a total of
Advertising Concession                                  25 months of incarceration and 13 years
                                                        probation, as well as pay almost $71,200 in fines
                                                        and restitution . In addition, FAA suspended
Task force agents also found a second tainted           each individual and company from bidding on
Philadelphia International Airport concessions          further Government contracts; one individual was
contract that involved airport advertising .            debarred by FAA in January 2007, and debarment
Between 1998 and 2003, the city of Philadelphia         proceedings are pending against all others .
issued advertising concessions contracts worth
approximately $15 million to Skysites Incorporated           In a separate scheme charged in January 2007,
to sell and manage all airport advertising . Skysites   the Skysites consultant allegedly fabricated invoices
then hired a consultant to help manage the              purporting to charge the Airport Ramada Inn
contract and, because the contract required DBE         $1,800 per month for advertisements on airport
participation, also subcontracted with a certified      phone boards . For 8 years, he allegedly diverted
DBE . Criminal investigators found that officials       these funds to his personal bank accounts,
from Skysites and the DBE firm conspired to             thereby depriving both Skysites and the airport of
secure future airport advertising contracts by          approximately $180,000 in revenue . This case is
making $40,000 in illegal contributions to political    still pending in the courts .




	   	                                                    Combating	Disadvantaged	Business	Enterprise	Fraud	 1
Audits and Investigations (continued)


InveSTIGATIOnS
Illinois Man Fined For Falsifying Airman’s            of community service on December 4, 2006,
Medical Certificate Application and                   by a U .S . District Court judge in Los Angeles,
Operating a Helicopter Without a Required             California, after pleading guilty to aiding and
Airman’s Certificate                                  abetting in the illegal transportation of fireworks
October 25, 2006                                      into a prohibited jurisdiction . Figueroa was
                                                      charged in June 2006 with violating Federal
Randy A . Sanders was sentenced in U .S . District    hazardous materials (hazmat) transportation laws
Court in Chicago, Illinois, on October 25, 2006, to   for removing warning labels from approximately
pay a $5,000 fine and serve 12 months probation       500 pounds of fireworks before transporting
for providing false statements on his airman’s        them . He was arrested by local police shortly
medical certificate . Sanders pleaded guilty in       after leaving a freight terminal in Compton,
July 2006 to felony charges of operating an           California . This investigation was conducted
aircraft without an airman’s certificate and          with the FBI and the Compton Fire Department
of making false statements to the FAA for an          Arson Bureau .
airman’s medical and student pilot certificate .
Investigation found that Sanders failed to disclose   California Man Jailed and Fined for Sale of
to FAA his prior felony convictions on drug and       Illegally Imported Freon
weapons charges . In January 2005, Sanders also       December 7, 2006
piloted a helicopter he owned from Kenosha,
Wisconsin, to Schaumburg, Illinois, for routine       Ahed Alghazouli was sentenced on December
maintenance, even though he did not hold a            7, 2006, to serve 30 months in prison, 3 years
valid airman’s certificate . FAA assisted in this     supervised release and was ordered to pay a
investigation .                                       $6,000 fine by a U .S . District Court judge in
                                                      San Diego, California, on a charge of conspiracy
California Man Sentenced for Illegal                  to launder money in connection with the sale
Fireworks Transportation                              of illegally imported R-12 Freon refrigerant .
December 4, 2006                                      R-12 Freon is used primarily in automobile
                                                      air conditioning units and is considered by
Eduardo Figueroa, of Lynwood, California,             EPA to be a hazardous material because of its
was sentenced to pay $2,000 in fines, serve           ozone-depleting properties . From June 1997 to
5 years probation and complete 1,500 hours            October 2004, Alghazouli and his brother, Amar
                                                      Alghazouli, operated United Auto Supply in
                                                      San Diego, where they sold automotive supplies,
                                                      including R-12 Freon smuggled into the United
                                                      States from Mexico . Amar Alghazouli was
                                                      convicted in March 2006 of similar charges and
                                                      was sentenced in July 2006 to serve 41 months
                                                      in prison, pay a $7,500 fine, and forfeit property
                                                      valued at $135,000 in Chandler, Arizona .
                                                      This case was investigated with the Bureau of
                                                      Immigration and Customs Enforcement, the
                                                      EPA’s Criminal Investigations Division (CID)
                                                      and the FBI .

1	 Semiannual Report to Congress
Former Montana Airport Director Sentenced              with conducting improper overhauls on aircraft
in Bribery Case                                        engines . A third person, Larry Good (father
December 19, 2006                                      of Allen Good), pleaded guilty to a charge of
                                                       misprision of a felony prior to the start of the
Three men, including the former director of            trial . The Goods, both aircraft mechanics, and
Missoula International Airport, were sentenced         Parker, a self-employed aircraft parts broker,
on December 19, 2006, in U .S . District Court in      falsified entries in aircraft logbooks regarding an
Missoula, Montana, for their roles in a scheme to      aircraft engine . The logbook entries indicated
sell land to the airport at inflated prices . Former   that engines had been disassembled, cleaned, and
Airport Director, John P . Seymour, was ordered        inspected in accordance with applicable overhaul
to serve 14 months in jail and 3 years supervised      manuals when, in fact, the engines contained
release . William J . Lefler and Roger D . Hall, who   parts that were marked “not airworthy .” The mail
sold land to the airport at inflated prices, each      fraud charge stems from a payment sent via mail
received 5 years probation . The men were also         to the men by the engine’s owner . Sentencing
ordered to pay $60,000 in restitution .                is pending .
    The investigation disclosed that Seymour,          Former Contract Air Traffic Controller
Lefler and Hall conspired to sell property owned       Ordered to Serve 10 Years in Prison in
by Lefler and Hall to the airport for $603,000,        Colorado Firebomb Case
which was $350,000 above the land’s highest            February 2, 2007
appraised value . Seymour received a $60,000
kickback . This case grew out of an investigation      Former contract air traffic controller Robert L .
by Missoula County law enforcement officials .         Burke of Grand Junction, Colorado, was sentenced
In July 2005, Seymour was convicted on state           in U .S . District Court in Denver, Colorado, on
embezzlement charges and ordered to serve              February 2 to 10 years in prison and ordered to
10 years in prison . His Federal jail term will run    pay $11,865 in restitution for placing improvised
concurrently with his state prison term . This case    explosive/incendiary devices at the homes of five
was investigated with the FBI .                        former colleagues who worked with him at the air
                                                       traffic control tower at Walker Field, an airport in
Two Convicted On Charges of                            Grand Junction, Colorado . Burke pleaded guilty
Misrepresenting Maintenance Performed                  in October 2006 to placing explosive devises at
on Aircraft Engines                                    the residences of his former colleagues, one of
December 20, 2006                                      whom is employed by FAA . The remainder were
                                                       former employees of Serco Management Services,
Allen D . Good and Robert E . Parker were              an FAA contractor that operates the Walker Field
convicted by a Federal jury in Oklahoma City,          tower . Three of the devices detonated and two
Oklahoma, on December 20, 2006, on charges of          were disarmed . No injuries resulted and fire
misrepresenting maintenance done on aircraft           damage was minor . Burke worked for Serco for
engines . Parker, of Yukon, Oklahoma, was              10 years before being dismissed in 2004 . OIG
convicted of one count of conspiracy, three counts     investigated this case with the Bureau of Alcohol,
of false statements in connection with conducting      Tobacco and Firearms, the FBI, FAA, the Bureau
improper overhauls on aircraft engines, and one        of Immigration and Customs Enforcement,
count of mail fraud . Good, of Moore, Oklahoma,        the Bureau of Land Management and the U .S .
was convicted of one count of conspiracy and           Marshals Service .
three counts of false statements in connection

	   	                                                                       Aviation	and	Special	Programs	 1
Audits and Investigations (continued)

Owners of Florida Aerospace Metals                     January 19 to one count each of conspiracy and
Supplier Fined and Ordered to Jail                     making a false statement . Cohen’s sentencing is set
February 16, 2007                                      for June 19 .

The owners of a now-defunct Fort Lauderdale,               FAA issued an unapproved parts notification
Florida, aerospace industry supplier and several       in December 2005 to aircraft owners, operators,
of their former employees were sentenced               maintenance organizations, manufacturers, parts
during the reporting period . M&M Aerospace            suppliers, and distributors . This investigation
Metals, Inc . supplied metals to the aerospace         was conducted with the FAA, the Department
community, including NASA, the Department              of Energy OIG, the NASA OIG, and the Defense
of Defense, and the Department of Energy . The         Criminal Investigative Service (DCIS) .
materials were then used by M&M customers in
various aerospace-grade aluminum and stainless         California Aircraft Parts Brokerage Firm
steel plates, pipes, flat stock, and bars .            Fined $450,000
                                                       February 12, 2007
     Company owners, Timothy and Tina
Muldoon, were ordered on February 16 by a U .S .       Standby Parts, Inc ., an El Segundo, California,
District Court judge in West Palm Beach, Florida,      aircraft parts brokerage company, was fined
to pay a combined $20,600 in fines for their role in   $450,000 by a U .S . District Court judge in
the fraud .  Investigation found that the Muldoons     Los Angeles, California, on February 12 for
engaged in a conspiracy by instructing M&M             misrepresenting the quality of aircraft parts . The
employees, including former sales manager Russell      company was also placed on 2 years probation .
Cohen, and former administrative assistants,           Company manager, Henrick Johansen, was ordered
Ella B . Hernandez and Leonor Gonzalez, to alter       to serve 11 months imprisonment . Standby Parts
test certificates from metals-testing laboratories     and Johansen were convicted by a Federal jury
and certificates of compliance from metal              in July 2006 of felony charges of conspiracy and
distributors when test results and specifications      fraud involving aircraft parts . Investigation found
listed on these documents did not conform to the       that Johansen obtained FAA airworthiness tags
customers’ metal specifications and purchase order     for aircraft engine bolts and other similar parts
requirements .                                         indicating that the parts were either new or of a
                                                       higher quality than Johansen knew them to be .
    Timothy Muldoon was ordered to serve               Johnson conspired with a former FAA designated
27 months imprisonment as a result of his 2006         airworthiness representative and the owner of
guilty plea to a conspiracy charge . Tina Muldoon      Total Airframe and Turbine Company (TATCO),
was ordered to serve 2 years imprisonment as a         a former FAA-certificated repair station, in
result of her guilty plea to charges of making false   obtaining the tags .
claims and making false statements . The couple
had previously paid $396,960 in restitution .              FAA issued a safety alert in April 2001 on
                                                       parts sold by TATCO, which subsequently
   Hernandez was sentenced on December 6,              surrendered its certification . FAA issued a
2006, to 90 days home detention and 2 years            safety alert on parts sold by Standby Parts in
probation after pleading guilty to a charge of         November 2006 . Daniel L . Booker, a former
making false statements on test certification          FAA designated airworthiness representative, is
documents . Gonzalez was sentenced to 18 months        awaiting sentencing for signing FAA airworthiness
probation on March 30 . Cohen pleaded guilty on        tags without actually inspecting the parts . George

1	 Semiannual Report to Congress
Thompson, former owner of TATCO, died in                           currently is no provision in Federal regulations
January 2006 before he could be sentenced for                      specifically excluding debarred companies from
signing FAA airworthiness tags for parts which his                 performing PFC-funded work . We conferred with
company was not rated to inspect . This case was                   DOT and FAA officials who concluded that the
investigated with the FBI, with assistance from                    FAA lacks the authority to prevent airports from
the FAA .                                                          paying PFC funds to debarred companies . We
                                                                   identified this issue in our February 14 testimony
Review of Apron Construction at Long                               on FAA’s FY 2008 budget before the House
Island-MacArthur Airport                                           Transportation and Infrastructure Committee,
February 22, 2007                                                  Subcommittee on Aviation, as an issue for possible
                                                                   legislative action .
We issued correspondence to Representative
Steve Israel on February 22 regarding our review                   Miami International Airport Contractor
of matters raised by a constituent related to the                  Sentenced to Prison for DBE Fraud
safety and risks associated with defects in an apron               March 5, 2007
outside the Southwest Airlines terminal at Long
Island-MacArthur Airport in Islip, New York .                      Dewitt Jackson Maxwell was sentenced on
                                                                   March 5 in U .S . District Court in Miami, Florida,
    According to FAA, aircraft can still operate                   to 5 years in prison and ordered to pay $14,800
on the apron as long as the airport continues its                  in fines in connection with fraud involving the
efforts to seal the cracks and sweep the pavement                  DBE program at Miami International Airport .
to remove foreign objects and debris . We also                     Maxwell, vice president of Fisk Electric, was
reviewed the propriety of the use of a contractor                  convicted by a Federal jury on November 17, 2006,
and subcontractor that have been the subject of                    on mail fraud, wire fraud, money laundering, and
Federal criminal charges to construct the apron .                  conspiracy charges . According to evidence at trial,
                                                                   Maxwell devised a scheme to enable awards to be
     We found that the apron was built by
                                                                   made to FLP Enterprises, Inc . for more than $20
Southwest Airlines without the use of Federal
                                                                   million (including $5 .8 million in Federal funds)
funds . While Southwest Airlines anticipates
                                                                   in electrical construction work at the airport
reimbursement for the construction through
                                                                   between December 2001 and October 2004 . The
Passenger Facility Charges (PFC) levied by
                                                                   Miami-Dade County Aviation Department was
Islip Town to pay for airport improvements, town
                                                                   told that FLP, a certified DBE, was to perform the
officials have said they will not release the funds
                                                                   work . The electrical work was actually performed
until the outstanding issues are resolved . There
                                                                   by Fisk Electric, which was not a DBE . For the use
                                                                   of its name, FLP received a fee of between 3 and
                                                                   5 percent of the value of the work assigned to it
                                                                   on paper .

                                                                       Maxwell was the last of four people to face
                                                                   charges in this case . Former Fisk executive, Pat
                                                                   Clyne, and FLP vice president, Hector Paultre,
                                                                   pleaded guilty in 2006 and were each sentenced
                                                                   to 5 years in prison . Also indicted in July
                                                                   2005 was Arthur Teele, a Fisk consultant and a
                                                       oIG Photo




                                                                   former Administrator of the U .S . Urban Mass

	   	                                                                                   Aviation	and	Special	Programs	 1
Audits and Investigations (continued)

Transportation Administration (predecessor             Court in Detroit, Michigan, on March 15 to
to the Federal Transit Administration) . Teele         pay $11 .75 million to resolve False Claims Act
committed suicide shortly after the indictments .      and administrative claims that they knowingly
This investigation was conducted by a joint task       violated DBE contracting requirements for
force which included OIG, the Miami-Dade               federally-funded construction projects at
County Police Department’s Public Corruption           Detroit Metropolitan Wayne County Airport .
Unit, the IRS Criminal Investigations Division         Operating as a joint venture, Ajax and DEI
(CID), and the FBI .                                   were the prime contractors for road projects
                                                       at the airport . The joint venture allegedly
Florida Aircraft Parts Supplier Jailed for 78          misrepresented the amount of DBE contracting
Months for Lying About Condition of Parts              work performed by Borbolla Construction &
March 9, 2007                                          Concrete Supply, Inc . The companies claimed
                                                       that Borbolla Construction performed substantial
The owner of a Miami, Florida, aircraft parts
                                                       work on the contracts when, in fact, Borbolla
supplier was ordered to serve 78 months in prison
                                                       Construction actually performed little more than
on March 9 by a Federal judge in Miami as a result
                                                       minor administrative tasks . The joint venture has
of his November 2006 conviction on charges of
                                                       entered into a separate administrative agreement
making materially fraudulent representations
                                                       with FAA to ensure future compliance with DBE
concerning the condition of aircraft parts, in
                                                       requirements . This case was investigated with
violation of the Aircraft Safety Act of 2000 . A
                                                       the Civil Division of the Justice Department, the
Federal jury found George Myles, owner of Miles
                                                       U .S . Attorney’s Office for the Eastern District of
Aviation, Inc ., guilty on November 20, 2006,
                                                       Michigan, and FAA .
of purchasing used aircraft parts and falsely
certifying them as “new” or “new surplus” on a         Former Owner of Iowa Repair Station
required certification form for Department of          Sentenced for Forging Maintenance Logs
Defense contracts . These parts were flight-critical   March 19, 2007
and their failure could be potentially catastrophic
and/or cause serious damage to aircraft . Myles        Clark Calta, former owner of Air America, an
also provided numerous aircraft parts to civilian      FAA-certificated repair station in Mt . Vernon,
purchasers after fraudulently certifying that          Iowa, was ordered by a U .S . District Court
the parts were airworthy . Neither Myles nor           judge in Des Moines, Iowa, on March 19 to
his company were licensed by FAA to perform            serve 2 years probation for making false
inspections, repairs, or overhauls and thus could      statements regarding airplane and engine
not certify the airworthiness of aircraft parts .      maintenance records . Investigation found that
OIG investigated this case with the Air Force          Calta falsely represented to FAA that the annual
Office of Special Investigations, the DCIS, and        inspection of four different privately-owned
the NASA OIG .                                         aircraft had been conducted by a FAA-certificated
                                                       mechanic/inspector when, in fact, they had not
Contractors Agree to Pay $11.75 Million in             been inspected . The aircraft have since been
Michigan DBE Fraud Case                                inspected in accordance with required FAA
March 15, 2007                                         procedures . Calta, who pleaded guilty in June
                                                       2006 to a single count of making false statements,
Ajax Paving Industries, Inc ., and Dan’s               is no longer involved in the aircraft maintenance
Excavating, Inc . (DEI), agreed in U .S . District     business .


2
Former Air Ambulance Pilot Convicted                    District Court judge in Spokane on March 28
of Falsifying His Medical Certificate                   for failing to report disqualifying prescription
Application                                             medications on his 2004 airman medical
March 19, 2007                                          application . Black pleaded guilty on November
                                                        27, 2006, to a charge of making a false statement
A former air ambulance service pilot was found          on his FAA airman’s medical application .  Black’s
guilty by a Federal jury in Sacramento, California,     duties included conducting proving flights for
on March 19 of charges of making false statements       Falcon jet pilots approximately once a month .
on his application for an airman’s medical              Black resigned from the FAA after his indictment
certificate and failing to report Social Security       in June 2006 .
disability overpayments . Michael Pennington, of
Susanville, California, was a former chief pilot and    Oklahoma Company Pays $850,000 in False
maintenance director for Mountain Life Flight, an       Claims Settlement Related to Charges of
air ambulance service based in Susanville .
                                                        Illegal Transport and Disposal of Hazmat
    Testimony during trial disclosed that               March 28, 2007
Pennington falsified his application for his annual
                                                        On March 28, a Federal judge in Oklahoma City,
airman’s medical certificate between 2001 and
2004 by failing to indicate that he was receiving       Oklahoma, approved settlement of a civil action
disability benefits for debilitating medical            resulting in the payment of $850,000 to the Federal
conditions . Pennington also failed to inform           government by a hazardous waste remediation
the Social Security Administration (SSA) of his         company, Environmental Management, Inc .
employment . His failure to do so resulted in           (EMI), located in Guthrie, Oklahoma . EMI
his receiving $36,000 of excess Social Security         contracted with the Drug Enforcement
disability payments from 2003 to 2005 . FAA             Administration (DEA) for the cleanup, removal,
ordered an emergency revocation of Pennington’s         and storage of hazardous waste seized by law
licenses and certifications .                           enforcement authorities from illegal drug labs .
                                                        From October 1997 through September 2002,
    Pennington’s sentencing is scheduled for            EMI or its subcontractors responded to more
May 29 . It will be the last sentencing in “Operation   than 13,000 calls for lab cleanups and were paid
Safe Pilot,” a review of airmen’s medical               more than $35 million under the DEA contract .
certifications in Northern California conducted         In 2004, a former worker filed a qui tam suit
with the SSA OIG . The investigation resulted in        alleging that, among other things, EMI violated
45 pilots in Northern California being charged with     the False Claims Act through false billings and
making false statements . One pilot died while          erroneously representing that it was in compliance
under investigation and 43 pleaded guilty .             with applicable Federal regulations governing
                                                        the transportation, storage, and destruction of
FAA Safety Manager Fined for Making False               hazardous materials . The complainant alleged that
Statement on FAA Application                            EMI used drivers that did not have proper training
March 28, 2007                                          in transporting hazmat . Some EMI drivers
                                                        allegedly did not have a hazmat endorsement on
John R . Black, a former aviation safety program
                                                        their commercial drivers licenses . Following an
manager in FAA’s Spokane, Washington, Flight
                                                        investigation, including assistance provided by OIG,
Standards District Office was fined $1,000 and
                                                        the United States intervened in the action . Both
ordered to serve 3 years probation by a U .S .


	   	                                                                        Aviation	and	Special	Programs	 1
Audits and Investigations (continued)

EMI and its president have denied any wrongdoing    agreed on March 30 to forfeit $1 .5 million to
and liability . The settlement agreement included   the U .S . Government to settle an allegation that
dismissal of the qui tam lawsuit .                  from 2000 through 2006 he and GIC unlawfully
                                                    repaired, tested, and returned to service
New York Repair Station Owner Agrees to             customers’ aircraft parts that did not comply with
Forfeit $1.5 Million                                Federal Aviation Regulations, and had falsified
March 30, 2007                                      airworthiness certifications for those parts . The
                                                    case leading to this result was investigated by the
Samuel Gross, owner of Gross Instrument             OIG with the NASA OIG and DCIS, with the
Corporation (GIC), of Richmond Hill, New York,      assistance of the FAA .
a now defunct FAA-certificated repair station,




22
Surface and maritime Programs




In FOCuS: emPhASIzInG The BeneFITS OF vAlue enGIneerInG
          In The FederAl-AId hIGhWAy PrOGrAm



I
    n a time when states’ demands for highway           Designation Act of 1995, each state is to perform
    funding is increasing at a faster pace than the     value engineering for all Federal-aid highway
    associated tax revenues, the Department is          projects on the National Highway System (NHS)
looking into innovative ways to fund the growing        with an estimated cost of $25 million or more . It
transportation needs of the nation . Our audit          also requires that VE studies be performed on
of the FHWA’s Value Engineering (VE) program            non-NHS projects that have a high potential for
identified ways in which states can better use scarce   cost savings .
Trust Fund receipts through increased use of this
important program .                                         Providing states a substantial opportunity
                                                        to obtain the most value from Federal-aid funds
   Value Engineering is the systematic review and       by achieving savings on planned construction
analysis of a project during its concept and design     projects, the VE process has the potential to serve
phases . It is performed by a multi-disciplinary        as a key tool in FHWA’s stewardship of Federal
team that is established by the state that operates     funds . Historically, by performing VE studies and
independent of the state’s project team . In            accepting the resulting recommendations, states
accordance with the National Highway System             have saved an average of 5 percent of estimated


	   	                                                                                   Value	Engineering	 
Audits and Investigations (continued)

project costs . Based on information provided by         and the belief that VE studies were performed
FHWA, we calculated that each dollar spent on            too late in the design process to approve and
VE yielded $128 in project savings .                     implement recommendations . We reported
                                                         that from FY 2001 through FY 2004, 5 of the
missed Opportunities to Increase Savings                 10 states in our sample collectively approved
                                                         23 percent of the proposed recommendations,
We reported that from FY 2001 through                    which contrasted with the nationwide approval
FY 2004, states collectively reported $4 .2 billion      average of 44 .4 percent . Had those five states
in recommended savings (about $1 billion                 achieved the 44 .4 percent national average and
annually) . When viewed alone, the $4 .2 billion         saved the national average of $1 .18 million on
is impressive, but we determined that had                each accepted recommendation, they could have
states conducted required VE studies on all              achieved a savings of $381 million, including the
eligible projects and accepted the resulting             Federal share of approximately $305 million, and
recommendations, an additional $725 million              reprogrammed those funds into other qualifying
in Federal funds could have been saved . More            projects . In addition, if 23 other states had also
specifically, our judgmental sample of 10 states         achieved the national average, $408 million more
showed that only three performed VE studies on           (a Federal share of $326 million) could have been
every project that met the $25 million threshold .       made available for reprogramming .

    The seven remaining states did not perform
required VE studies on 39 of 289 Federal-aid NHS
projects that met the threshold . Had those states
performed the required studies on the 39 projects,
collectively valued at $2 .0 billion, and achieved the
5 percent national average savings, we estimate
they could have saved an additional $98 .4
million—funds that could have been
reprogrammed into other eligible projects . If
states had performed VE studies on nine other
Federal-aid projects that were not on the NHS, an
additional $19 million could have been available
for reprogramming . About $94 million (80
percent) of this $117 million total represents the
Federal share .

Following Through on ve Studies                          FhWA must Strengthen Its Oversight
                                                         of State ve Programs
For those projects on which VE studies were
performed, we reported that states did not               We reported that to ensure states’ use of
approve many of the resulting recommendations .          VE analysis throughout highway project
The low acceptance rate was attributed to                development, design, and construction, FHWA
state officials’ failure to promote the benefits         Division Offices must increase their oversight
of value engineering, the misperception that             and strengthen existing policies . Division
VE studies caused unneeded project delays,               Offices indicated that their participation in

2
state VE programs was limited because they              evaluating the performance of Division Office
viewed VE as a mature program that did not              personnel . Finally, we recommended that FHWA
require oversight . We also reported that limited       incorporate VE into its corporate risk assessment
resources to monitor VE programs and the low            process to determine whether all required studies
emphasis FHWA placed on VE contributed to               were performed and to assess how the states
FHWA’s weak oversight .                                 determine whether or not to accept or reject
                                                        recommendations .
    We recommended that FHWA revise its policy
manual to require responsible state management to           FHWA concurred with our recommendations
sign off on the rejection of VE recommendations         and stated its commitment to the promotion
containing substantial cost savings, to establish       of and the need to improve value engineering
requirements for the support of cost estimates, and     nationally . It plans to ensure that value
to require the Division Offices’ VE coordinators to     engineering is applied to improve the quality,
either monitor or participate in all state VE studies   cost-effectiveness, and productivity associated
for Federal-aid projects .                              with developing improvement projects on
                                                        the surface transportation system . We will
    We also recommended that FHWA                       monitor FHWA’s progress in implementing
develop performance goals for measuring the             these corrective actions .
effectiveness of state VE programs and for


AudITS
Letter to Representative Nadler on                      Inspector General Testifies on the
Relocation Assistance Provided to Tenants               Reauthorization of the Federal Railroad
Affected by the Fulton Street Transit Center            Safety Program
Project                                                 January 30, 2007
January 17, 2007
                                                        The Inspector General testified before the House
We issued a letter to Representative Jerrold            Transportation and Infrastructure Committee,
Nadler regarding whether the Metropolitan               Subcommittee on Railroads, Pipelines, and
Transportation Authority (MTA) provided                 Hazardous Materials, on the reauthorization
adequate relocation planning, advisory services,        of the Federal Railroad Safety Program . His
and assistance coordination to individuals and          testimony focused on the Federal Railroad
businesses being displaced by the Fulton Street         Administration: (1) improving grade crossing
Transit Center Project in New York City, which          safety by ensuring compliance with its reporting
receives Federal funds . We found that: (1) FTA’s       requirements and working with states to
Lower Manhattan Recovery Office and the                 address problems, such as sight obstructions
MTA improved relocation assistance provided             at grade crossings, and (2) identifying safety
to tenants; (2) FTA and MTA gave tenants                trends through data analysis to better target
additional time to move out of their spaces; and        its inspection resources and oversight activities .
(3) all tenants moved without the MTA having
to evict anyone .



	   	                                                                       Surface	and	Maritime	Programs	 
Audits and Investigations (continued)

NHTSA’s Alcohol-Impaired Driing Traffic                (Alabama, Florida, Louisiana, Mississippi, and
Safety Program                                          Texas) to determine if unneeded funds could be
March 5, 2007                                           redirected to hurricane recovery efforts . We
                                                        identified about $10 .7 million in unneeded
                                                        funds that could be redirected to hurricane
                                                        recovery efforts . In addition, we found that the
                                                        FHWA could assist Congress in identifying idle
                                                        earmarked funds that could be used for other
                                                        purposes by: (1) implementing legislation
                                                        allowing states to identify pre-1991, unneeded
                                                        earmarked funds and use them on other
                                                        transportation projects in the state and
At the request of the House and Senate                  (2) providing Congress with a list of all
Committees on Appropriations, we compared the           unneeded earmarked funds on a regular basis .
programs and activities in 10 selected states for       FHWA agreed with our recommendations .
countering alcohol-impaired driving and explored
actions the National Highway Traffic Safety             Testimony Regarding Cross-Border
Administration (NHTSA) could take to ensure             Trucking Before the Senate Appropriations
that funds are targeted towards strategies that         Transportation Subcommittee and the
will have the most impact on reducing                   House Transportation and Infrastructure
alcohol-impaired driving .                              Subcommittee on Highway and Transit
                                                        March 8, 2007 and March 13, 2007
    We found that state performance plans
generally contain measures on activities, such as       The Inspector General testified before Congress
the number of sobriety checkpoints conducted            regarding the status of safety requirements
or the overall performance goal of reducing the         for cross-border trucking with Mexico under
alcohol-impaired fatality rate .

     However, better information is needed on
the degree to which states are implementing
key strategies such as sustained enforcement of
laws . The report also included examples of best
practices found in the 10 state alcohol-impaired
driving programs . NHTSA generally agreed with
our recommendations, and, in responding to the
final report, the NHTSA Administrator stated that
its work on the report had already yielded benefits .

Opportunities To Free Up Unneeded FHWA
Funds for Use in Hurricane Recovery Efforts
March 6, 2007

We examined 203 highway projects that
received earmarked funds in the five states
                                                                                                            O




affected by Hurricanes Katrina and Rita

26
the provisions of the North American Free         that the Commonwealth has sufficiently
Trade Agreement . The Inspector General           mitigated any risks . In addition, we concluded
testified that: (1) the Federal Motor Carrier     that the Commonwealth has taken steps to
Safety Administration (FMCSA) has made            evaluate whether other contractors, such as
continual improvements in its border safety       Keville Enterprises, lacked independence
program; (2) FMCSA and the states have made       due to previous involvement in the design or
significant progress in resolving problems        construction of the CA/T Project . FHWA
associated with ensuring that states can take     informed us that, in conducting its own
effective enforcement action against Mexican      assessment, it was also satisfied with the
motor carriers; and (3) FMCSA has taken           Commonwealth’s efforts to deal with any
action needed to ensure that weigh stations are   independence concerns .
fully operational . Despite the progress made,
additional improvements are needed . FMCSA        Value Engineering in FHWA’s Federal-Aid
needs to: (1) improve the quality of data used    Highway Program
to monitor Mexican commercial traffic             March 28, 2007
convictions in the United States; (2) ensure
adequate capacity to inspect Mexican buses;       We issued our audit of FHWA’s oversight of value
(3) fully implement its policy on compliance      engineering (VE) in the Federal-aid highway
with Federal motor vehicle manufacturing          program and the effectiveness of the states’
safety standards; and (4) continue to focus       respective VE processes . VE is the systematic
attention on drug and alcohol issues .            process of review and analysis of a project during
                                                  the concept and design phases . It provides a
Independence of Central Artery/Tunnel             substantial opportunity for states to obtain the
Project Inspection Contractors                    most value from Federal-aid funds by achieving
March 27, 2007                                    savings on planned construction projects with an
                                                  estimated cost of $25 million or more .
We reviewed the actions taken by the
Commonwealth of Massachusetts to address              From FY 2001 through FY 2004, states
the independence concerns posed by contractors    collectively reported $4 .2 billion in recommended
performing inspections of repairs on the          savings from VE studies . During the same
Boston Central Artery/Tunnel Project (CA/T) .     4-year period, we estimate that if states had
This review was requested by Representative       conducted required VE studies and accepted more
Michael Capuano in response to revelations        recommendations, an additional $725 million in
that employees of the CA/T Project’s long-time    Federal funds could have been saved and made
contractor—a joint venture of Bechtel             available for other federally-funded projects .
Corporation and Parsons Brinckerhoff Quade &
                                                      Based on our review in 10 states, we concluded
Douglas, Inc .—were conducting inspections of
                                                  that FHWA provided limited oversight of state VE
remediation work, which raised independence
                                                  programs . Further, FHWA Division Offices could
concerns .
                                                  not always demonstrate that they encouraged states
    Based on the results of our review, we        to use VE or identified and disseminated states’
are sufficiently assured that contractors with    best practices . As a result, 7 of 10 states reviewed
potential independence issues have been           missed opportunities to achieve significant
removed from CA/T remediation work and            savings . Further, VE recommendations that were


	   	                                                                 Surface	and	Maritime	Programs	 
Audits and Investigations (continued)

not implemented resulted in additional missed         all state VE studies for Federal-aid projects .
opportunities for significant savings .               FHWA concurred with our recommendations
                                                      and provided planned corrective actions that
    We recommended improvements to FHWA’s             will begin as early as March 2007 . Additional
VE policy, which included requiring its division      information can be found on page 23 of this
offices to either monitor or participate in           semiannual report .


InveSTIGATIOnS
North Carolina Highway Contractor Agrees              Montana, on November 14, 2006, to pay
to $2.25 Million Civil Settlement for False           $200,000 to the Federal Government to settle
Testing of Asphalt on Federally-Funded                false claims stemming from overstating the
Highway Projects                                      quantity of epoxy paint used on federally-funded
October 3, 2006                                       highway striping projects around the state . An
                                                      OIG investigation found that the Montana
APAC Atlantic, Inc . (APAC), Greensboro,              Department of Transportation was overbilled by
North Carolina, agreed in U .S . District Court       approximately $697,000 . Under the terms of the
in Greensboro on October 3, 2006, to pay              settlement with FHWA, Promark, Inc ., agreed to
$2 .25 million to settle a Federal civil claim        an annual audit of their contracts and to submit
involving false asphalt testing . Investigation       a plan to improve their administrative and
revealed that six asphalt plant technicians           auditing functions .
employed by APAC had falsified tests on several
federally-funded highway construction projects        Truck Driver Involved in Fatal Crash Jailed
in the Greensboro area . As a result, substandard     for 4 Years
asphalt may have been used in several projects .      December 4, 2006
APAC management conducted an internal
investigation and fired the six employees . The       Gulvinder Singh Sandhu, a former driver for
company, which has made full payment, also            Montreal-based Garfield Container Transport,
agreed to extend its warranty on the affected         Inc ., was sentenced in U .S . District Court in
projects . APAC also agreed to an extensive quality   Philadelphia, Pennsylvania, on December 4, 2006,
control and compliance program requiring the          to serve 4 years in prison, 3 years supervised
company to employ an independent monitor for          release, and pay $9,200 in fines . OIG’s
quality control testing . This investigation was      investigation found that Sandhu falsified his
conducted with FHWA and the North Carolina            driver’s logbooks, including the night before a
Department of Transportation .                        September 22, 1999, accident in which his tractor
                                                      trailer collided with a minivan on Interstate 78 in
Montana Contractor Agrees To Pay                      Greenwich Township, Pennsylvania . Four people
$200,000 to Settle False Claims Case                  died in the crash . Sandhu fled to Canada after his
November 14, 2006                                     2002 indictment and returned to the United States
                                                      in May 2006 . This investigation was conducted
A Florence, Montana, highway paint contractor         with assistance from the Canadian Ministry of
agreed in U .S . District Court in Missoula,          Justice and FMCSA .



28
Former Professor Ordered to Repay                      convicted at trial in July 2006 of conspiracy and
$80,440 Embezzled From FHWA-Funded                     mail fraud . Tulio paid a DBE-certified hauling
Research Center                                        firm for the use of its name to secure contracts
December 19, 2006                                      with SEPTA, an FTA grantee . Investigation
                                                       determined that Tulio submitted false checks,
Paul G . Bedewi, former Deputy Director of the         reports, and correspondence claiming that
FHWA-funded National Crash Analysis Center in          Tulio used the DBE firm to perform the work
Ashburn, Virginia, and a former adjunct professor      stipulated in the contract, when in fact Tulio
at George Washington University (GWU), was             used his own employees . The Tulio contracts
sentenced on December 19, 2006, in U .S . District     totaled approximately $418,000, with the DBE
Court in Washington, D .C . to serve 5 months          fraud amount involving approximately $68,000 .
in prison and was ordered to pay $80,440 in            FTA suspended Tulio and his company from
restitution to GWU . Bedewi pleaded guilty in          doing business with the Federal Government in
October 2005 to a felony count of theft from           October 2006, pending debarment proceedings .
programs receiving Federal funds . He was charged      Additional information can be found on page 13
with embezzling $78,602 in FHWA and GWU                of this semiannual report .
research funds between August 2002 and June
2004 through illegal stipends and unallowable          Paving Companies and Owners Forfeit
purchases . Investigation found that Bedewi caused     $2.3 Million in Long Island Bid-Rigging Case
the Center to issue $36,150 in unauthorized and        December 22, 2006
fraudulent graduate assistant stipends to his wife .
Bedewi also used a university purchase card to         Three paving contractors and the five
make $42,452 in unauthorized purchases .               companies they operated pleaded guilty in U .S .
                                                       District Court in Central Islip, New York, on
    Paul Bedewi is the cousin of Nabih Bedewi,         December 22, 2006, to conspiracy charges related
a former GWU engineering professor and                 to bid-rigging on various roadway projects
former Director of the Center . Nabih Bedewi           sponsored by the Suffolk County Department of
was sentenced in June 2005 to 38 months in             Public Works and the Town of Brookhaven, New
prison and ordered to pay $872,221 in restitution      York . Pleading guilty were: Frank G . Schambra,
for embezzling nearly $1 million in DOT and            president of Sundial Asphalt; James K . Haney,
GWU research funds . Both men have made full           president of Suffolk Asphalt Supply; and William
restitution .                                          L . Fehr, Jr ., president of All-County Paving and a
                                                       vice president of Prima Asphalt Concrete, of which
Contractor Fined $143,000 and Ordered                  Pav-Co Asphalt is a subsidiary . As part of the
Jailed in Philadelphia DBE Fraud Case                  plea, the defendants agreed to forfeit $2 .3 million
December 20, 2006                                      to the Federal Government and pay $326,000
                                                       in restitution to the county and town . Between
Michael Tulio, owner and operator of Tulio
                                                       July 2003 and September 2005, the contractors
Landscaping, was ordered by a U .S . District Court
                                                       manipulated the awarding of Suffolk County
judge in Philadelphia, Pennsylvania, on December
                                                       contracts for road maintenance and repair and
20, 2006, to pay a $40,000 fine and to serve 15
                                                       Brookhaven contracts for asphalt for road repairs .
months in prison and 24 months supervised
                                                       The contractors artificially inflated the cost of the
release for his role in a DBE fraud scheme
                                                       contracts through a system of bid-rigging . FHWA
related to SEPTA transit contracts . His company
                                                       has suspended three of the companies from doing
was fined $103,000 . Tulio and his company were

	   	                                                                      Surface	and	Maritime	Programs	 
Audits and Investigations (continued)

business with the Federal Government . Haney,        program, CAE submitted paperwork to the Ohio
Fehr, Schambra have also been suspended by           Department of Transportation (ODOT) stating
FHWA . Sentencing is pending for Haney, Fehr,        that it would use a DBE-certified contractor to
and Schambra .                                       provide curb and gutter work valued at $275,410
                                                     on the bridge project . CAE subsequently utilized
Former Louisiana Transportation Employee             employees of a non-DBE contractor to perform
Ordered to Pay $60,000 in Restitution                the work . The company certified on payroll
January 5, 2007                                      reports submitted to ODOT that the workers were
                                                     employees of the DBE when, in fact, they were not .
Former State of Louisiana employee Angie C .
Normand was ordered by a state court judge               CAE agreed to pay a $25,000 fine and
in East Baton Rouge, Louisiana, on January 5         $275,410 in restitution to FHWA and ODOT .
to pay $60,000 in restitution and serve 5 years      The company also agreed to a 6-month exclusion
probation . Normand, a former bookkeeper             from ODOT projects and to a 3-year compliance
at the Capital Region Planning Commission            monitoring program . The exclusion was
(CRPC), pleaded guilty on October 13, 2006,          retroactive and expired November 27, 2006 .
to the theft of FHWA and FTA funds from the          Payment of the fine and restitution will not
Commission, a local transportation planning          occur until after sentencing, which is scheduled
agency . Normand used CRPC checks and                for April 27 .
credit cards to issue unauthorized payments to
herself, her mother, and various merchants for       Former Maryland Waste Hauler Employee
personal items . She attempted to conceal these      Ordered to Pay $86,524 in Restitution
payments by falsifying CRPC checks, invoices,        January 17, 2007
and bank and credit card statements . The theft
was discovered after a state audit disclosed the     Jennifer Lynn Snell, a former employee of East
possible embezzlement of funds from CRPC .           Coast Resources Group, LLC, Upper Marlboro,
Subsequent investigation by OIG and the East         Maryland (a waste disposal trucking company),
Baton Rouge Parish Sheriff’s Office confirmed        was ordered by a state court judge in Upper
the theft . Normand was terminated from her          Marlboro on January 17 to pay $86,524 in
position at the CRPC after the discovery of her      restitution for her role in an embezzlement
activities . She is making restitution .             scheme . Snell was also ordered to serve 44 days
                                                     in prison and 5 years probation . This case was
Ohio Contractor Pleads Guilty in DBE                 referred to OIG by the Maryland Department
Fraud Case                                           of Transportation after Snell alleged that an
January 11, 2007                                     FMCSA inspector was accepting bribes from
                                                     a company official in exchange for a favorable
Central Allied Enterprises, Inc . (CAE) pleaded      compliance review . OIG determined that Snell
guilty in U .S . District Court in Columbus, Ohio,   lied about the alleged bribery scheme to cover
on January 11 to charges of knowingly making a       up her manipulation of the company’s payroll
false statement regarding a $2 .7 million            system to pay herself at least $86,524 in excess
federally-funded highway project in Lorain           salary . Snell had paid more than $8,000 in
County, Ohio . To meet the requirement that          restitution as of March 31 .
a percentage of its subcontracts be awarded
to disadvantaged businesses under the DBE


3
Texas Company Involved in Fatal Bus Fire            ensure safe operation, and failing to require daily
Fined $100,000                                      vehicle inspection reports . Global Limo was also
January 10, 2007                                    convicted of conspiracy to falsify driver logs .

Global Limo, the company involved in a fatal            Global Limo was ordered to shut down
bus fire that killed 23 senior citizens evacuated   following a FMCSA compliance review in
from a Houston-area nursing home in the path of     September 2005 . The company has not reopened .
Hurricane Rita in September 2005, was ordered
to pay $100,000 by a U .S . District Court judge    New Jersey Woman Sentenced for Selling
in McAllen, Texas on January 10 for violating       Counterfeit CDLs
Federal motor carrier safety regulations . The      January 12, 2007
company was also placed on 5 years probation .
Company owner James Maples was fined $10,000,       Susana Marta Koorie, of Hackensack, New Jersey,
ordered to serve 6 months in a halfway house,       was ordered by a U .S . District Court judge in
6 months home confinement and to seek court         Alexandria, Virginia, on January 12, to serve
approval prior to obtaining future work in the      6 months of home detention, 2 years supervised
transportation industry . Global Limo and Maples    probation, and ordered to pay a $100 fine for
were found guilty following a 7-day trial in        her role in a conspiracy to commit identification
October 2006 of failing to inspect their buses to   fraud . Koorie conspired with other employees of




	   	                                                                   Surface	and	Maritime	Programs	 1
Audits and Investigations (continued)

Covitta Trucking Company in 2003 to sell three        Owner of Chicago Engineering Firm Pleads
counterfeit New Jersey commercial drivers licenses    Guilty to $9.8 Million in Over-Billing on
to individuals in Virginia and New Jersey at a cost   Illinois Transportation Projects
of $2,300 each . Seven other defendants had been      February 1, 2007
sentenced in this case as of March 31 . Another
three are fugitives and have outstanding arrest       Manu Shah, owner and operator of Shah
warrants .                                            Engineering, Inc . (SEI), pleaded guilty in
                                                      U .S . District Court in Springfield, Illinois, on
California Truck Drivers Sentenced for                February 1 to two counts of mail fraud and one
Keeping False Driver Daily Logs                       count of false statements related to the
January 29, 2007                                      over-billing of state and local transportation
                                                      agencies for engineering and architectural services .
Five drivers for two California trucking companies    This case was initiated after a 2004 audit by the
were sentenced during the reporting period for        Illinois Department of Transportation (IDOT)
violations of Federal regulations limiting the        determined that SEI overstated its overhead
amount of time commercial drivers can work .          expenses on contracts with the state, the City of
Kenneth Edward Matthews, of Fresno, California,       Chicago, and the Illinois State Tollway Authority .
was sentenced by a U .S . District Court judge in     Subsequent investigation determined SEI
Fresno on January 29 to 9 months imprisonment         overstated at least $9 .8 million in overhead and
split between custody and home confinement for        other costs on various transportation projects,
making false statements in his drivers logbook        including IDOT contracts receiving FHWA funds .
regarding the amount of time he worked .              IDOT suspended SEI from doing business with
Matthews previously pleaded guilty to charges         the state in August 2005 . Sentencing is set for
of keeping false driver logs while employed as a      September 24 . FTA has suspended Shah from
driver for NB Trucking, Inc ., and its predecessor    doing business with the Government . Debarment
company, Nijjar Brothers Trucking Inc ., both of      proceedings are pending . This case was
Madera, California .                                  investigated with the FBI .
      Four other former drivers for Nijjar Brothers   Former Licensing Official Sentenced in
were sentenced on November 14, 2006, to               North Carolina CDL Fraud Case
varying jail terms by a U .S . District Court judge   February 13, 2007
in Fresno, for keeping false drivers’ log books .
Greg Allen Mello was sentenced to 15 months           Jimmy D . Halcomb of Broadway, North Carolina,
in prison . Pedro Farias-Lopez and Muhammad           was ordered by a U .S . District Court judge in
Arshid Chaudhry each received 3 months in             Greenville, North Carolina, on February 13 to
jail . Baljinder Singh was sentenced to 135 days      pay $7,500 in restitution for issuing CDLs to
imprisonment . Each driver was also ordered to        151 license applicants without proper testing .
pay a $100 fine and serve 24 months supervised        Halcomb, a former authorized third party CDL
release . Nine other drivers for Nijjar pleaded       examiner for the North Carolina Department of
guilty in 2005 and are scheduled to be sentenced      Motor Vehicles (NCDMV), was also placed on 2
on May 21 . OIG investigated this case with           years probation as a result of his October 10, 2006,
assistance from FMCSA and the California              guilty plea to a charge of making false statements .
Highway Patrol .                                      Federal regulations require that commercial
                                                      drivers be tested on their skills in performing a


32
pre-trip inspection, basic skills and maneuvers,      from DuFAST . The Authority, an FTA grantee,
and a road test . Investigation found that            provides transportation services to residents of
Halcomb failed to give all three parts of the CDL     Dubois and Sandy Townships, Pennsylvania .
examination to the 151 drivers he tested in 2001 .    Lauri Ferraro, the Authority’s Executive Director,
In many cases, Halcomb gave no examination            was sentenced to 3 years in prison and ordered to
at all . The NCDMV removed Halcomb as an              pay $289,762 in restitution . Elaine Kost, an
examiner and required the 151 license holders to      administrative assistant at the Authority, was
re-take the tests or have their licenses revoked .    sentenced to 18 months in prison and ordered to
The investigation was conducted jointly with          pay $135,762 in restitution .
FMCSA and NCDMV .
                                                          Kost and Farraro pleaded guilty on January 8
FTA Debars Pennsylvania Transit Contractor            to multiple counts of criminal conspiracy, felony
for 5 Years                                           theft, and forgery . Between May 2000 and
February 22, 2007                                     December 2004, Kost and Ferraro falsified board
                                                      meeting minutes to indicate authorization of
On February 22, FTA debarred JMG Excavating           bonuses for themselves and reimbursements for
Co . (JMG), Pottstown, Pennsylvania, for 5 years as   various unauthorized expenses . Kost received
a result of the company’s May 2006 guilty plea to     $128,000 in unauthorized bonuses and expense
charges of mail fraud involving the DBE program       reimbursements . Ferraro received unauthorized
on federally-funded transit contracts . Between       bonuses and expense reimbursements totaling
1997 and 2004, JMG obtained eight contracts from      $291,000 . FTA identified questionable expenses at
the SEPTA totaling $7 .8 million . The contracts      the Authority during its annual financial audit of
required that a portion of the work be done by a      the agency in December 2005 and notified OIG .
DBE-certified subcontractor . JMG paid a              This case was investigated with the Pennsylvania
certified DBE a 2 .5 percent fee in exchange for      State Police and the Clearfield County District
letting JMG bill SEPTA for $1 .27 million for         Attorney’s Office .
DBE-subcontracted work that was actually
performed by JMG . In May 2006, JMG was placed
on 5 years probation and was ordered to make
restitution of $1 .27 million, which it is in the
process of doing . The investigation was conducted
with the FBI and with assistance from SEPTA’s
OIG . Additional information can be found on
page 13 of this semiannual report .

Former Pennsylvania Transit Officials
Ordered to Pay $425,524 for Theft of
Federal Transit Grant Funds
February 27, 2007

Two former employees of the DuFAST Transit
Authority were sentenced February 27 by a state
court judge in Clearfield, Pennsylvania, to pay a
combined $425,524 in restitution to the Authority
for the theft of Federal and state transit funds

	   	                                                                     Surface	and	Maritime	Programs	 
Audits and Investigations (continued)

Virginia Construction Company To Pay                    contractors being overpaid approximately
$2.5 Million For Making False Statements                $1 million for truckloads of material that were
March 4, 2007                                           never removed from the work sites . Sentencing
                                                        of Costa is scheduled for June 8 . FHWA is
English Construction Company, of Lynchburg,             considering suspension and debarment against
Virginia, agreed in U .S . District Court in Roanoke,   Costa and his company . This case was investigated
Virginia, on March 4 to pay $2 .5 million to the        by OIG and other members of the Long Island
Federal Government as a settlement for making           Construction Fraud Task Force .
false material statements about work performed
by a DBE on a federally-funded road project in          Pennsylvania Truck Driver Ordered Jailed
Montgomery County, Virginia . According to              For 2 Years In Vehicular Homicide Case
the information filed in Federal court, English         March 7, 2007
Construction was the low bidder on a contract
to construct an interchange and bridge on state         On March 7, a state court judge in Easton,
Route 460 in Montgomery County . The contract,          Pennsylvania, sentenced truck driver Carlos
which was partially federally-funded, required          Aguirre-Giraldo to 2 years in prison and 2 years
that a portion of the work be performed by a            supervised release for his role in a truck crash
DBE . English Construction certified that the DBE       that killed two individuals . Aguirre-Giraldo was
portion of the work was being done independently        convicted in January of vehicular homicide and
by Colyer Construction Company, a certified             related charges . According to testimony at trial,
DBE, when in fact it was done with the assistance       Aguirre-Giraldo, a truck driver for Industrias
of English employees . Colyer Construction              Suarez Sa Incorporated, of Clifton, New Jersey,
Company was decertified as a DBE by the Virginia        was driving on Interstate 78 near Allentown,
Department of Transportation (VDOT) in 2003 .           Pennsylvania, on December 27, 2005, when his
This case was investigated with VDOT .                  truck crossed the median, struck a passenger
                                                        vehicle and killed the two occupants, including
New York Construction Company Official                  a 21-year-old veteran of the Iraq war . Aguirre-
Pleads Guilty In Bribery Case                           Giraldo was also convicted of two counts of
March 7, 2007                                           involuntary manslaughter and five counts of
                                                        reckless endangerment . OIG investigated this case
Thomas Costa, president of Costa Construction           with the Pennsylvania State Police and FMSCA .
Corp ., Deer Park, New York, pleaded guilty on
March 7 in U .S . District Court in Central Islip,      Owner of Wisconsin Dump Truck Firm
New York, to a charge of money laundering               Pleads Guilty to Submitting False
conspiracy related to a road repaving project in        Statements on Federal Highway Contracts
New York City . Between 2002 and 2003, Costa’s          March 14, 2007
company was a subcontractor on a $16 million
roadway milling contract for the New York City          Darrell Kasner, owner of Kasner’s Transportation,
Department of Transportation . Milling is the           Inc ., Aprin, Wisconsin, pleaded guilty in
process where a contractor grinds off the top layer     U .S . District Court in Madison, Wisconsin, on
of asphalt from the existing roadway surface before     March 14 to charges of making false statements
repaving . Costa participated in a scheme to bribe      on payroll reports submitted for hauling services
the inspector overseeing the project . In exchange      performed on a federally-funded highway project
for accepting these bribes, the inspector               near Winchester, Wisconsin . Kasner was indicted
submitted false inspection reports resulting in the     on October 26, 2006, on charges of failing to pay

3
two dump truck drivers local prevailing wages
in 2002 and 2003 as required under Federal
law . Kasner and his company were subsequently
suspended by the Wisconsin Department of
Transportation (WISDOT) . Federal suspension
action is pending . Sentencing is set for May 23 .
This investigation was conducted with the
assistance of WISDOT .

Middleman Pleads Guilty in Michigan
Drivers License Fraud Investigation

Mohamed Abdulla Saleh pleaded guilty on
March 15 to a charge of identification document
fraud in U .S . District Court in Detroit, Michigan .
Saleh was indicted on January 10 on charges
related to his role as a middleman in a scheme
to assist more than 177 people obtain personal
drivers licenses from the state of Michigan . Saleh
allegedly collected $300 from customers and paid
Michigan Secretary of State employees to issue
drivers licenses without requiring the customer
to take the required written knowledge test . No
sentencing date has been set . As of the end of
the reporting period, 55 licenses had expired and       contractor at ConnDOT, was debarred for
another 55 licenses had been surrendered . This         2 years .
case is part of an ongoing investigation led by
the FBI .                                                    In order to circumvent the competitive
                                                        bidding process and direct the project to Testa’s
Three Former Connecticut DOT Officials                  company, Cox and Sereno instructed Kelly
Debarred by FTA                                         to prepare two false bids in excess of Testa’s
March 22, 2007                                          bid . Testa subsequently paid Kelly $3,000 for
                                                        preparing the false paperwork . Cox and Sereno
FTA debarred two former managers at the                 instructed Testa to purchase household appliances,
Connecticut Department of Transportation                including big-screen televisions and refrigerators,
(ConnDOT), a contractor, and the owner of a             for ConnDOT employees . All of the items,
Connecticut construction company on March 22            including the payment to Kelly, were billed to
for their roles in fraud involving the renovation       the Union Station renovation . Upon learning of
of New Haven’s Union Station . Raymond Cox,             the investigation, Cox attempted to persuade two
former ConnDOT assistant rail administrator;            ConnDOT employees to get rid of the household
Saverio Sereno, ConnDOT’s project manager for           appliances they received .
the Union Station renovation project; contractor
Louis Testa, and his company, Merritt Builders,             Cox resigned from ConnDOT and pleaded
were each debarred for 3 years . Frederick “Fritz”      guilty to one count of theft involving Federal
Kelly, who worked for Cox and Sereno as a               programs and obstruction of justice . He was

	   	                                                                      Surface	and	Maritime	Programs	 
Audits and Investigations (continued)

ordered by a U .S . District Court judge in New          Kelly pleaded guilty on February 1 to a charge
Haven on October 19, 2006, to pay a $3,000 fine,     of making false statements . He was ordered to
serve 2 months in jail, 7 months home confinement    serve 2 years probation and pay a $3,000 fine .
and perform 300 hours of community service .         Testa pleaded guilty on October 16, 2006, to a
Sereno pleaded guilty in July 2006 to one count of   charge of failing to declare almost $400,000 in
theft involving federal programs and was sentenced   business and personal income on his Federal tax
in December 2006 to serve 3 years probation          return . Sentencing is pending . OIG investigated
and pay $8,404 in fines and restitution . Sereno     this case with the FBI and the IRS CID, with
previously had resigned from ConnDOT .               assistance from ConnDOT .




36
    Competition and economic Analysis




AudITS
FY 2006 Fourth Quarter Report on                    operational reforms . These overall savings
Cost-Savings Accrued by Amtrak                      from reform contribute to Amtrak’s current
Operational Reform                                  better-than-expected financial performance .
October 10, 2006                                    Through August, Amtrak’s operating loss was
                                                    $122 million below the year-to-date projected
We issued our FY 2006 Fourth Quarter report         loss in the $586 million subsidy baseline . As
to the House and Senate Appropriations              such, barring any unexpected losses, Amtrak
Committees as mandated by Congress in the           will achieve the required savings to operate
Conference Report accompanying the FY 2006          within its FY 2006 appropriation . Amtrak
Appropriations Act for the Department of            estimates that its financial performance will
Transportation . Our report provided an estimate    continue to improve and, as a result, expects to
of the savings accrued as a result of operational   end FY 2006 with a $209 million cash balance .
reforms instituted by Amtrak . Amtrak has
achieved operational savings of $5 .1 million           Looking toward FY 2007 and FY 2008,
through July 2006 . This compares to the            Amtrak will need to maintain progress in
$3 .8 million in savings we certified Amtrak had    implementing operational reforms to continue
achieved through May 2006 in our July quarterly     to reduce its reliance on Federal operating
report . Amtrak has achieved $51 .2 million in      subsidies . It will be necessary for Amtrak to
savings through July 2006 from all its FY 2006      move beyond the “low-hanging fruit” and begin

	   	                                                              Competition	and	Economic	Analysis 
Audits and Investigations (continued)

to implement more difficult reforms in food            FY 2007 First Quarter Report on
and beverage service, sleeper car service, route       Cost-Savings Accrued by Amtrak
restructuring, state payments, and labor contracts .   Operational Reform
                                                       January 18, 2007
     Critical to Amtrak’s ability to increase its
efficiency and reduce unit costs will be the           We issued our quarterly report to the House
development of a managerial accounting system .        and Senate Appropriations Committees as
Amtrak is developing a system that will replace        mandated by Congress in the Conference Report
its legacy activity-based Route Profitability          accompanying the FY 2006 Appropriations Act for
System with one that will support both                 the Department of Transportation . We provided
avoidable and full-cost methodologies and              the baseline from which we will measure Amtrak’s
provide business-line and route level                  FY 2007 operational reform savings and our
activity-based analysis . We are monitoring            assessment of the savings Amtrak achieved from
Amtrak’s development of this system to help            operational reforms in FY 2006 . We have set the
ensure that it is well designed and to respond         FY 2007 operational reform savings baseline at
to congressional direction to report on the            $550 million . Amtrak proposes to achieve
strengths and weaknesses of the system after it        $61 million of this amount from FY 2007
is implemented .                                       operational reforms and $19 million from other
                                                       savings . The remaining $470 million will need
                                                       to come from a combination of the Federal
                                                       appropriation for operating subsidies and further




                                                                                                           Photo Courtesy of AmtrAk




38
savings . Amtrak’s $61 .3 million in savings from    Inspector General Testifies on FAA
operational reforms in FY 2006 contributed to        Financing Proposals
its better-than-expected financial performance .     March 21, 2007
Amtrak’s $433 million operating loss in FY 2006
was $52 million below its FY 2006 operating grant    The Inspector General testified before the House
appropriation of $485 million and $153 million       Transportation and Infrastructure Committee,
below its own FY 2006 projection of a $586 million   Subcommittee on Aviation, regarding FAA
operating loss .                                     financing proposals . The Inspector General
                                                     stated that there are important reasons to consider
Testimony Before the Senate                          alternative mechanisms to finance FAA that have
Appropriations Transportation                        been well documented in previous reports and
Subcommittee Regarding Amtrak’s FY 2008              commissions on reforming FAA . He also stated
Budget Needs                                         that: (1) FAA’s current financing mechanism could
February 28, 2007                                    support both its ongoing efforts and the potential
                                                     cost of developing the next generation air traffic
The Assistant Inspector General for                  control system (NextGen) if FAA’s projected
Competition and Economic Analysis testified          revenues materialize; (2) FAA’s method for
before the Senate Appropriations Committee,          allocating costs among user groups is reasonable
Subcommittee on Transportation, regarding            but reflects trade-offs that primarily result in fewer
Amtrak’s FY 2008 budget needs, the railroad’s        costs being allocated to general aviation operators;
recent efforts to improve its financial condition,   and (3) the cost recovery proposal does not
and alternatives for financing intercity passenger   completely link costs and fees and therefore is not
rail . The Assistant Inspector General testified     fully consistent with FAA’s rationale for moving
that Amtrak would need $465 million in               to user fees . While the decision of how best to
FY 2008 for cash operating losses, $600 million      finance FAA is a policy call for the Congress, FAA
for capital spending, and $285 million for debt      needs to continue to take steps to control costs
service to operate its nationwide system while       regardless of whether it is funded in the future
staying focused on needed reforms . As Amtrak        by excise taxes or user fees . Greater clarity is
revises its revenue and expense estimates            needed with respect to how FAA will manage and
during the year, our estimate may also change .      execute NextGen initiatives, particularly given past
Increased investment in intercity passenger          experiences with cost growth and schedule slips .
rail must go hand-in-hand with improved              In addition, FAA’s proposed borrowing authority
operating efficiencies, the Assistant Inspector      presents serious risks unless it is accompanied
General stated . Additionally, Amtrak needs to       by strong controls . Finally, FAA’s timetable for
finalize and implement route restructuring, cost     development of a fee proposal, including the
recovery, and labor reforms .                        billing system, is ambitious .




	   	                                                                Competition	and	Economic	Analysis	 
Audits and Investigations (continued)


InveSTIGATIOnS
Former Boston Maine Airways Corporation                 2005 .  Air carriers seeking to acquire additional
Official Indicted On Charges of Falsifying              aircraft must certify that they have sufficient
Financial Documents in 2005 Filings to DOT              cash assets to make the purchase and continue
January 17, 2007                                        operating .  Nadolny allegedly falsely represented
                                                        on documents submitted to the Department that
John Nadolny, of Rye, New Hampshire, the former         the airline possessed sufficient cash assets .  The
general counsel and Senior Vice President of            investigation was initiated in August 2005 based
Boston Maine Airways Corporation, Portsmouth,           upon a referral by the Office of Aviation and
New Hampshire, was indicted on January 17               International Affairs . 
by a Federal grand jury on charges of falsifying
documents to the Department’s Office of Aviation        Note: The details contained in this indictment are allegations .
                                                        The defendant is presumed to be innocent until proven guilty
and International Affairs in support of the airline’s   beyond a reasonable doubt in a court of law .
application for amended certification in May




40	 Semiannual Report to Congress
Financial and Information Technology




AudITS
Audit of DOT’s Information                             FY 2007 will be a particularly challenging year
Security Program                                   for the Department in managing its IT security
October 23, 2006                                   and investments . It has to recertify more than half
                                                   of all its information systems, upgrade systems
During FY 2006, the Department made                security to meet new Government standards,
noticeable improvement in tracking,                relocate its headquarters (including more than
prioritizing, and correcting security weaknesses   75 information systems), and take aggressive
in its information security program—a major        action to strengthen air traffic control systems
concern identified last year . The Department      security protection . In addition, the Department
also took aggressive action to identify systems    needs to develop a better methodology to validate
containing personally identifiable information     the security configurations of commercial software
for proper security protection, including          products installed in DOT systems and continue
procuring encryption software to secure all        enhancing oversight of IT investments .
laptop computers . In addition, the departmental
Investment Review Board provided oversight to          We made a series of recommendations to
a multibillion-dollar Information Technology       help the Department strengthen oversight of its
(IT) investment project managed by FAA .           information security program, security
                                                   protection of the critical air traffic control


	   	                                                            Financial	and	Information	Technology 41
Audits and Investigations (continued)

systems infrastructure, and oversight of its
multibillion-dollar annual IT investments .
The CIO agreed with our findings and
recommendations .

Saint Lawrence Seaway Development
Corporation FY 2006 and FY 2005
Financial Statements
November 9, 2006




                                                                                                       Photo Courtesy of beyoNDroADs.Com
We issued a quality control review report on the
audited financial statements . Dembo, Jones,
Healy, Pennington & Marshall, P .C . performed
the audit and rendered an unqualified (clean)
opinion on the financial statements . The audit
did not identify any internal control weaknesses
or material non-compliances with laws or           and FY 2006 comparative financial statements
regulations .                                      for the Highway Trust Fund because the Office
                                                   of Management and Budget granted a waiver
FAA FY 2006 Administrative Services                to the Department as a result of legislative
Franchise Fund Financial Statements                changes made by the SAFETEA-LU highway
November 13, 2006                                  reauthorization act .

We issued a quality control review report on       FAA FY 2006 and FY 2005 Consolidated
the audited financial statements . KPMG LLP of     Financial Statements
Oklahoma City, Oklahoma, performed the audit       November 14, 2006
and rendered an unqualified (clean) opinion .
KPMG reported four internal control reportable     We issued a quality control review report on
conditions and two instances of noncompliance      the audited financial statements . KPMG LLP
with applicable laws and regulations .             of Washington, DC, performed the audit and
                                                   rendered a qualified opinion on the financial
Highway Trust Fund FY 2006                         statements because FAA was unable to provide
Financial Statements                               sufficient evidence to support the accuracy and
November 14, 2006                                  completeness of the Construction in Progress
                                                   (CIP) account balances . These CIPs, with a
We issued a quality control review report on       reported value of $4 .7 billion, are a component
the audited financial statements . KPMG LLP        of Property, Plant, and Equipment in the footnote
of Washington, DC, performed the audit and         disclosure to the FAA Balance Sheet . KPMG also
rendered an unqualified (clean) opinion on         reported one material internal control weakness,
the financial statements . KPMG reported           three reportable conditions, and two instances
one material internal control weakness, three      of noncompliance with applicable laws and
reportable conditions, and one instance of         regulations .
noncompliance with applicable laws and
regulations . DOT did not prepare FY 2005



4	 Semiannual Report to Congress
DOT FY 2006 and FY 2005 Consolidated                   Review of FY 2006 Drug Control Funds
Financial Statements                                   February 1, 2007
November 15, 2006
                                                       We performed an attestation review for the Office
As required by the Chief Financial Officer Act, we     of National Drug Control Policy concerning
issued our audit of DOT’s consolidated financial       NHTSA’s reporting of the use of drug control
statements for fiscal years 2006 and 2005 . We         funds . We concluded that NHTSA’s reporting
concluded that DOT’s consolidated financial            is presented in conformity with the Office of
statements are fairly presented and, in all material   National Drug Control Policy Circular: Drug
respects, in conformity with generally accepted        Control Accounting, dated April 18, 2003 .
accounting principles with one exception . That
exception concerns the FY 2006 CIP account             Emergency Transportation Services
balance .                                              Contract: Lessons Learned From the
                                                       2005 Gulf Coast Hurricanes
    KPMG LLP, under contract to us and under           February 5, 2007
our supervision, audited FAA’s financial statements
and rendered a qualified opinion because FAA was       We found that having an emergency
unable to provide sufficient evidence to support       transportation services contract in place allowed
the accuracy and completeness of the CIP account       the Department and its contractor to carry
balances .                                             out a strong and rapid response to Hurricane
                                                       Katrina and other hurricanes that occurred in
    Because FAA’s property, including CIP,             2005 . The disasters also provided lessons about
represents about 95 percent of the Property, Plant     how contracting practices can be improved . We
and Equipment line item on the Department’s            recommended that the Department ensure that
consolidated balance sheet, the Department’s           administrative fee rates for future emergency
consolidated financial statements must be              contracts are structured appropriately to
similarly qualified . In addition, we identified       avoid overpaying when services dramatically
seven reportable conditions, three instances           increase . Additionally, we recommended that the
of noncompliance with applicable laws and              Department negotiate profit rates appropriate for
regulations, and two material internal control         the types of contracts awarded . The Department
weaknesses: (1) FAA’s CIP processing and               agreed with the recommendations .
(2) the Highway Trust Fund agencies’ financial
management, reporting, and oversight .


N

                                                       However, continued management attention is
                                                       needed in several areas: (1) assessing systems
                                                       risk and assigning a priority to reviewing and
                                                       testing security protection of systems with
In FY 2006, the National                               a higher-risk impact on NTSB operations;
Transportation Safety Board                            (2) enforcing and following through on the
(NTSB) made a concerted effort to correct              newly established network security requirements;
security weaknesses identified in prior years .        and (3) identifying systems containing sensitive

	   	                                                               Financial	and	Information	Technology	 4
Audits and Investigations (continued)

personally identifiable information for proper        who rarely travel; (4) documenting management
protection . Because of these concerns, NTSB’s        overrides of system controls designed to prevent
information security program in our opinion           the use of travel cards for certain activities;
still has a significant deficiency that should        (5) tracking cardholders’ acknowledgment of
be reported as a material internal control            responsibility for proper use of Government-issued
weakness on the annual Federal Managers’              cards; and (6) ensuring accurate reporting of
Financial Integrity Act Report to the Office of       Board members’ annual travel costs to Congress .
Management and Budget and Congress .
                                                      NTSB FY 2006 and FY 2005
NTSB Travel Card Program                              Financial Statements
November 1, 2006                                      November 13, 2006
We found that NTSB’s internal controls over its       We issued a quality control review report on
travel card program are generally adequate to         the audited financial statements . Leon Snead &
safeguard against unauthorized use of Government      Company of Rockville, Maryland, performed
travel cards and to prevent delinquencies .           the audit and rendered an unqualified (clean)
However, we identified opportunities to strengthen    opinion on the financial statements . Leon
controls in several areas . These include:            Snead & Company reported two material internal
(1) ensuring that NTSB maintains an accurate          control weaknesses related to implementation of
roster of travel cardholders; (2) closing separated   an Agency-wide information security program and
employees’ accounts in a timely manner;               internal controls over financial reporting .
(3) reducing travel card dollar limits for staff



InveSTIGATIOnS
FWHA Receives $3.4 Million Repayment                  Colombian National Pleads Guilty and Is
From New Mexico DOT                                   Sentenced for Theft of Government Laptop
November 1, 2006                                      Computer
                                                      December 4, 2006
FHWA accepted a $3 .4 million repayment from
the New Mexico Department of Transportation           Juan Calle, a Colombian national, pleaded guilty
(NMDOT) on November 1, 2006, for work                 and was subsequently sentenced in U .S . District
on a federally-funded highway construction            Court in Miami, Florida, on December 4, 2006, to
project in Santa Rosa, New Mexico, that did           a felony charge of theft of government property .
not meet Federal standards . Investigation            Calle was sentenced to time served and 3 years
found that NMDOT approved work where soil             of supervised release, which was suspended
was not properly compacted on the project and         because of his illegal immigration status in the
permitted the use of pipe that had not been           United States . Calle was subsequently deported
fully certified . The money was reprogrammed          to Colombia . This arrest resulted from OIG’s
for other Federal-aid highway projects in New         response to the theft of an OIG special agent’s
Mexico . OIG conducted this investigation with        laptop computer from a Government vehicle near
the NMDOT OIG .                                       Miami in July 2006 . Subsequent investigative
                                                      activity identified an organized effort by a small


44	 Semiannual Report to Congress
ring of thieves to steal laptops from vehicles in         The settlement arises from a $36 million
the same area where the OIG agent’s laptop was        embezzlement scheme occurring between
stolen . Calle had been observed stealing another     1992 and 2005 that was perpetrated by the
Government laptop from a decoy vehicle parked in      company’s chief financial officer and two
the same area . This case was investigated with the   accounting department employees . The scheme
FBI and the Miami-Dade Police Department .            involved shifting funds and fabricating entries
                                                      in the company’s books and records to conceal
Guilty Plea in Trucking Company Billing               the fraud . The fraudulent entries resulted in an
Fraud Case                                            overstated audited rate .
December 8, 2006
                                                          The settlement also resolved PBS&J’s treatment
Gary Newlun, former comptroller for                   of certain unallowable indirect costs that also
Airtrans, Inc . (a trucking company                   contributed to the company’s overstated audited
headquartered in Dyersburg, Tennessee), pleaded       rate . The civil investigation was conducted by
guilty on December 8, 2006, in U .S . District        OIG, the Civil Division of the Justice Department,
Court in Memphis, Tennessee, to charges of            and the Defense Contract Audit Agency . In
conspiracy to commit mail fraud in connection         September 2005, three former PBS&J employees
with a fraudulent billing scheme . Newlun and         pleaded guilty to wire fraud charges in U .S .
two other former company officials were charged       District Court in Miami, Florida . Sentencing is
in 2004 with conspiring to create false and           pending . The FBI and the U .S . Attorney’s Office
fictitious account receivables which they sold        for the Southern District of Florida investigated
at a discount to an unsuspecting third party .        the criminal case .
Newlun sent and received fraudulent accounts
receivables and was involved with the transfer        Former Fuel Delivery Company Employee
of funds associated with the scheme . Sentencing      Ordered to Pay $1.1 Million in Restitution in
for Newlun is pending . No trial date has been        Fuel Theft Case
set for former Airtrans owner Freddie Ford and        March 16, 2007
general manger David Hernandez . This case was
investigated with the Postal Inspection Service       On March 16, Martin Lynn Guitard, of Olympia,
and the FBI .                                         Washington, was ordered by a U .S . District Court
                                                      judge in Seattle, Washington, to pay $1 .1 million
Florida Design and Engineering Firm Pays              in restitution for his role in a scheme to steal more
$6.4 Million to Settle False Claims Act               than 1 .49 million gallons of fuel from a Seattle fuel
Claims                                                depot . Guitard was also ordered to serve 3 years
January 24, 2007                                      and 10 months in prison and 2 years of supervised
                                                      release . Guitard helped steal 2 .9 million gallons
PBS&J, a Florida-based design and engineering         of fuel from the 13th Avenue Harbor Island Fuel
firm, paid $6 .4 million on January 24 to resolve     Depot between January 1999 and September 2004 .
claims that it violated the False Claims Act by
submitting false and fraudulent claims to the             During the period that the thefts occurred,
Federal Government . FHWA and FAA were                Guitard was the terminal supervisor and had
among 12 Federal agencies affected by the false       access to a computer code that allowed his
claims .                                              co-conspirators to steal fuel for subsequent resale
                                                      to fuel service stations operating in Washington,


	   	                                                                Financial	and	Information	Technology	 4
Audits and Investigations (continued)

Idaho, and Oregon . Guitard and four others             guilty in April 2006 to conspiracy charges and
received $3 .9 million in sales from the stolen fuel    were each sentenced in July 2006 to 18 months
before Kinder Morgan Energy Partners (KMP),             in jail and to pay $235,360 apiece in restitution .
the terminal operator, detected fuel discrepancies      The remaining defendants, James Raymond Ito,
during an internal audit . An estimated $750,000        of Bellevue, Washington, and Neil Burt Kikuchi,
in motor fuel excise taxes were evaded as a result of   of Kent, Washington, pleaded guilty in July 2006
the scheme .                                            to conspiracy to steal interstate shipments, theft
                                                        of interstate shipments, and money laundering .
    In March 2006, a Federal grand jury indicted        They are scheduled to be sentenced on June
Guitard, two other KMP employees, and two               15 . OIG investigated this case with the Port of
employees of General Transport Company, a fuel          Seattle Police Department and the IRS Criminal
delivery firm in Seattle . Two defendants pleaded       Investigation Division .




4	 Semiannual Report to Congress
department-Wide Issues




AudITS
DOT’s FY 2007 Top Management Challenges                 program requirements and budgetary resources for
November 15, 2006                                       the short and long term, challenges in the areas of
                                                        aviation and surface safety, and getting the most
We released our annual report on the Top                from our Federal transportation infrastructure
Management Challenges facing the Department             dollars . The Inspector General identified three
in FY 2007 . In considering the items for this year’s   cross-cutting areas: (1) funding requirements for
list, we continued to focus on the Department’s key     FY 2008 and beyond for aviation and intercity
strategic goals to improve transportation safety,       passenger rail, (2) transportation safety, and
capacity, and efficiency . The report was included      (3) contract, grant, and project oversight .
in the Department’s FY 2006 Performance and             Additional information can be found on page 1
Accountability Report .                                 of this semiannual report .
DOT’s FY 2007 Top Management
Challenges Testimony
March 6, 2007

The Inspector General testified before Congress on
the major issues facing DOT in terms of linking



	   	                                                                            Department-Wide	Issues 4
Audits and Investigations (continued)


InveSTIGATIOnS
Former FHWA Employee Ordered To Repay
$25,949 in Personal Charges on Government
Credit Card
November 9, 2006

Former FHWA Human Resources Assistant,
Nickeisha C . Hamilton, pleaded guilty to a




                                                                                                             Photo Courtesy of sLsDC
felony theft charge in Maryland Circuit Court
in Upper Marlboro, Maryland, on November
9, 2006, and was sentenced to 5 years probation
and ordered to repay $25,949 in personal
purchases charged to her Government travel            Dumas falsely certified on workers compensation
card . While employed at FHWA in Washington,          forms that he was not able to work when, in fact,
D .C ., between January 2000 and November             he began working as a truck driver in December
2001, Hamilton used her travel card for a             2003 . This investigation was conducted with the
variety of personal purchases, including nail         U .S . Department of Labor, with assistance from
salon visits, cellular telephone services, cable      the SLSDC .
television for her residence, and cash advances .
The fraud was identified during a 2003 OIG            Former FTA Official Sentenced on Wire
audit of DOT employee travel cards . Hamilton         Fraud Charges
resigned from FHWA in January 2002 and is             March 13, 2007
making restitution .
                                                      Former FTA official Shang Hsiung was sentenced
Former Saint Lawrence Seaway Employee                 on March 13 by a U .S . District Court judge in
Ordered to Pay $55,725 for False Workers’             Washington, D .C ., to 6 months home confinement,
Compensation Claims                                   3 years probation and to pay a $2,000 fine for using
January 5, 2007                                       counterfeit checks and credit cards to obtain escort
                                                      services while on official travel . Hsiung pleaded
Allen L . Dumas of Massena, New York, a former        guilty on October 26, 2006, to one count of wire
line handler for the SLSDC, was sentenced on          fraud . Between January 2001 and March 2006,
January 5 in U .S . District Court in Syracuse, New   Hsiung used his Government-issued computer
York, to 5 years probation and ordered to repay       during work hours to search the Internet and
$55,725 in workers’ compensation benefits he          locate escorts in areas where he was expected to
illegally received from the SLSDC . Dumas was         travel while on official Government business . He
also disqualified for life from receiving workers’    also used his Government telephone to contact
compensation benefits . Dumas pleaded guilty          escort services in various states . Hsiung would pay
in September 2006 to a charge of theft of public      the escorts with counterfeit checks he fabricated or
money . Between December 2003 and November            credit card numbers he stole from colleagues at the
2005, Dumas received $53,271 in workers’              Department of Transportation and various
compensation payments and reimbursement for           other parties . Hsiung resigned from FTA in
$2,454 in medical expenses for a lower back injury    September 2006 . OIG conducted this investigation
he sustained while working at the SLSDC in 2002 .     with the U .S . Secret Service .


4	 Semiannual Report to Congress
                                                           Other Accomplishments


T
        his section highlights other accomplishments and contributions by Office of Inspector General
        staff that extend beyond the legal reporting requirements of the Inspector General Act . These
        accomplishments are part of our statutory responsibilities to review existing and proposed
legislation and regulations; respond to congressional and departmental requests for information; and
review policies for ways to promote effectiveness and efficiency and detect and prevent fraud, waste, and
abuse . Accomplishments not directly related to audit and investigative reports during this semiannual
reporting period are also highlighted below .


Conducted Peer Review of USDA OIG

In December 2006, our Office of Quality
Assurance Reviews and Internal Affairs issued a
peer review report on the audit function of the
U .S . Department of Agriculture’s (USDA) OIG
for the fiscal year ended March 31, 2006 . We
determined that the internal quality control system
of the USDA OIG was adequate as designed and
that applicable auditing standards, policies, and
procedures were met . We also suggested several
improvements, and the USDA OIG agreed to




                                                                                                               O
implement our proposed recommendations .

Helped the Malawian Government to                      As a result of this training, these investigators are
Improve Its Computer Crime Fighting                    now better able to combat the transnational crimes
Capability                                             of money laundering and terrorist financing, which
                                                       can have devastating effects such as loss of life and
At the request of the U .S . Department of the         severe economic consequences to our Nation and
Treasury, we provided training to financial crimes     others .
law enforcement investigators in Malawi assigned
to the Malawi Revenue Authority (similar to the        Heightened Fraud Awareness of Federal
U .S . Internal Revenue Service), the Organized        Grant Recipients and Others
Crime Bureau, and the Fiscal Police .
                                                       We provided fraud awareness briefings to nearly
Our training focused on helping them recognize         300 grantees and other stakeholders concerned
how computers and electronic devices can be used       about the impact of procurement contract and
as instruments of crime or as a storage device         grant fraud in their transportation programs at
for evidence in a host of crimes . It also provided    the local, state, and Federal levels . Audiences
the investigators with insight on how to properly      included airport officials, highway oversight and
secure various types of computers and storage          construction personnel, and consultants attending
media and other items (such as personal digital        FHWA and FAA conferences in Albuquerque, New
assistants, cell phones, and digital cameras) to       Mexico; Rosemont, Illinois; and other locations .
preserve evidence for digital evidence forensic        Our presentations described common types of
examiners .                                            fraud schemes that we see today within DOT,


	   	                                                                            Other	Accomplishments	 4
Other Accomplishments (continued)

including false claims, product substitution,          improve the oversight and accountability of
bid-rigging, DBE fraud, and corruption of public       Federal Emergency Management Agency (FEMA)
officials . We also outlined the OIG’s mission and     funds for agencies’ disaster response needs
structure and ways to report fraud indicators to our   (for situations such as Hurricanes Katrina and
Hotline Complaint Center .                             Rita) . Based on our experience in reviewing
                                                       DOT support provided under the National
These presentations helped strengthen important        Response Plan, we identified best practices and
working relationships and facilitate effective         mechanisms that could help all Government
fraud prevention and detection and, ultimately,        agencies to more effectively oversee monies
the prosecution of those who cheat American            provided to them through FEMA mission
taxpayers and harm transportation-related              assignments .
projects .
                                                           We suggested that agency management
Provided Suggestions to Congress for                   oversight activities be designed to: (1) ensure that
Enhancing Oversight of Emergency                       Federal funds are appropriately spent for their
Response Expenditures                                  intended purposes; and (2) fully protect taxpayers’
                                                       interests . Congress incorporated these suggestions
At the request of the House Committee on               in the FY 2007 Department of Homeland Security
Transportation and Infrastructure, we provided         Appropriations Act (PL 109-295), which was signed
technical legislative drafting assistance to           into law on October 4, 2006 .




5
                                                       Work Planned and in Progress


T
      his section describes significant work projects currently underway or planned by the Office
      of Inspector General that focus on the Department’s Strategic Plan and its core missions of
      transportation safety and mobility . We take into account the need to support DOT’s most critical
programs and to assure that departmental resources are protected from fraud and waste . In addition,
many of our projects arise from requests by Administration officials and members of Congress .

   The OIG has developed the following work plan for the period of April 1, 2007, through
September 30, 2007 .



Aviation and Special Programs
❚ FAA Oversight of Aircraft                            ❚ Controls Over FAA’s Conversion of Flight
  Manufacturers’ Quality Assurance                       Service Stations to Contract Operations
  Systems for Suppliers
                                                        Assess whether FAA has implemented effective
    Evaluate FAA’s oversight of aircraft                plans and controls to: (1) transition flight
    manufacturers’ quality assurance systems for        service stations to contract operations;
    domestic and foreign suppliers .                    (2) achieve anticipated savings; and (3) ensure
                                                        that the operational needs of users continue to
❚ Air Carriers’ Outsourcing of Aircraft                 be met .
  Maintenance

    Determine the type and quantity of
    maintenance performed by outside repair
    stations, and whether FAA is effectively
    monitoring air carriers’ oversight of the work
    performed by outside repair stations and
    verifying whether safety requirements are met .

❚ FAA’s Airport Surface Detection
  Equipment-Model X (ASDE-X) Program

    Determine whether FAA’s strategy for
    deploying ASDE-X for operational use is cost
    effective, given the changes in the program’s
    deployment strategy . Determine to what
                                                                                                          Photo Courtesy of AAAe




    extent the ASDE-X program will reduce the
    risk of ground collisions or accidents caused by
    runway incursions .




	    	                                                                       Work	Planned	and	in	Progress	 1
Work Planned and in Progress (continued)

❚ FAA’s Actions to Address Runway                     ❚ Congressional Earmarks Within DOT
  Incursions at Boston Logan, Chicago                   Programs
  O’Hare, and Philadelphia International
  Airports                                             At the request of the Chairman, now the
                                                       Ranking Member, of the Homeland Security
  Assess the actions taken by FAA to: (1) identify     and Governmental Affairs Committee,
  and correct the causes of recent runway              Subcommittee on Federal Financial
  incursions experienced at Boston Logan,              Management, we will determine: (1) the total
  Chicago O’Hare, and Philadelphia International       number and cost of congressional earmarks
  Airports; and (2) address those issues that could    within DOT programs; (2) whether oversight
  affect safety system-wide .                          is conducted on earmarks and how this
                                                       compares to the oversight conducted on other
❚ Federal Telecommunication Infrastructure             expenditures, such as grants and contracts; and
  (FTI) Transition Risks and Its Impact on Air         (3) the overall impact of earmarks on advancing
  Traffic Control Operations                           DOT’s primary mission and goals .

  Assess FAA’s progress in developing an effective    ❚ Airline Customer Service Commitments
  transition plan and realistic master schedule,        for Extended Ground Delays
  and determine if FAA is mitigating risks to
  air traffic control operations by coordinating       At the request of the Secretary, we will examine
  activities and validating site-specific              the airlines’ customer service commitments,
  requirements before activating FTI service and       contracts of carriage, and policies dealing with
  disconnecting existing telecommunications            extended ground delays aboard aircraft; look
  service .                                            into the specific situations involving American
                                                       Airlines and JetBlue, in light of whatever specific
❚ Air Traffic Control Modernization                    commitment these carriers made concerning
                                                       policies and practices for meeting customers’
  Examine: (1) recent changes in the cost and          essential needs during long on-board delays;
  schedule baselines of FAA’s major acquisition        and provide recommendations as to what,
  programs and expected benefits to FAA’s key          if anything, the airlines, airports, or the
  projects; (2) overall trends affecting FAA’s         government, including the Department, might
  $205 billion capital account; and (3) how            do to prevent a recurrence of such events,
  existing projects are being impacted by plans for    highlighting any “best practices” discovered by
  the next generation air traffic system .             the industry in dealing with such situations .
❚ Air Carrier’s Aviation Safety Action                ❚ FAA Short-Term Capacity Initiatives
  Programs (ASAP)
                                                       Identify the initiatives, both technological and
  Evaluate allegations regarding FAA’s use of          procedural, that will provide the most capacity
  ASAP and determine how reports submitted             benefits in the next 5 years and examine FAA’s
  for inclusion into ASAP are evaluated and            implementation process for capacity initiatives
  subsequently investigated by air carriers            and how the interrelationship among the various
  and FAA .                                            efforts are managed .




52
Surface and maritime Programs
❚ NHTSA’s Oversight of State Highway                        ❚ Baseline Report on Lower Manhattan
  Safety Programs                                             Recovery Projects

    Evaluate NHTSA’s management reviews                      Assess: (1) the status of each of five
    and program reviews of state highway safety              high-priority projects that are being funded
    programs and identify best practices .                   out of $4 .55 billion, including costs, funding,
                                                             schedules, and management; and (2) any
❚ Springfield, Massachusetts Union Station                   risks that may adversely affect its completion .
  Rehabilitation Project
                                                            ❚ Central Artery/Tunnel Project
    Determine whether the FTA’s oversight of the              Monitoring – Tunnel Safety
    project was adequate .
                                                             At the request of the Acting Secretary of
❚ Review of Pioneer Valley Transit Authority                 Transportation and the Massachusetts
  Electric Bus Cooperative Agreement                         congressional delegation, exercise independent
                                                             oversight of activities performed by the
    Determine whether: (1) FTA’s oversight was               Commonwealth of Massachusetts and the
    adequate and appropriate; (2) indirect expenses          FHWA, including reopening activities on closed
    charged to FTA were in accordance with FTA               sections of the Central Artery/Tunnel and the
    regulations; (3) direct expenses charged to FTA          ongoing phases of the comprehensive stem to
    were in accordance with FTA regulations; and             stern review .
    (4) required matching funds were secured .
                                                            ❚ Commercial Driver’s License Information
❚ FRA’s Enforcement of Rail Safety Laws                       System (CDLIS) Modernization Program
    Determine whether FRA’s assessment and                   Determine: (1) the total amount of revenue
    collection of civil penalties is an effective tool in    derived by the current operator of the CDLIS
    ensuring compliance with Federal safety laws .           from the fees charged for use of the system and
                                                             the CDLIS-related expenses incurred by the

                                                                                                                   Photo Courtesy of frA




	    	                                                                          Work	Planned	and	in	Progress	 
Work Planned and in Progress (continued)

 current operator of the system; (2) compare                                      ❚ FHWA Research, Development, and
 the total expenses to revenue received; and                                        Technology Projects at the Turner
 (3) determine how revenues and fees should be                                      Fairbank Highway Research Center
 addressed under the new modernization plan .
                                                                                   Determine whether the Government’s interests
❚ Central Artery/Tunnel Project                                                    are effectively protected when the Center’s
  Finance Plan – 2007                                                              research, development, and technology activities
                                                                                   are executed using contracts, assistance
 Determine whether the Finance Plan:                                               agreements, and reimbursable agreements .
 (1) presents a cost estimate that is based on
 all known and reasonably expected costs;                                         ❚ Mexico-Domiciled Trucks Access to
 (2) identifies appropriate and available funding                                   U.S. Roads
 sources sufficient to meet the total estimated
 cost; (3) provides a project construction                                         Conduct audit work in response to a request
 schedule that is based on all known and                                           from the House Committee on Transportation
 reasonably anticipated delays; and (4) discloses                                  and Infrastructure . The committee requested
 other issues affecting the project .                                              that we review several topics related to a 1-year
                                                                                   pilot program announced by the Department
                                                                                   on February 23, 2007 . According to the
                                                                                   request, the pilot program would grant 100
                                                                                   Mexico-domiciled trucking companies
                                                                                   unrestricted access to U .S . roads .

                                                                                  ❚ Federal Motor Vehicle Safety Standards

                                                                                   Provide comments and observations on the
                                                                                   scope and methodology of FMCSA’s review
                                                                                   of Canadian and Mexican commercial motor
                                                    WmAtA Photo by LArry LevINe




                                                                                   vehicles for compliance with Federal safety
                                                                                   standards . SAFETEA-LU requires that FMCSA
                                                                                   determine the degree to which Canadian and
                                                                                   Mexican motor vehicles, including motor
                                                                                   carriers of passengers, currently operating
❚ Baseline Report on Dulles Corridor                                               or expected to operate in the United States,
  Metrorail Project                                                                comply with the Federal standards .

 Monitor: (1) the status of the project in the
 Metropolitan Washington, DC area, including
 costs, funding, schedules, and management;
 and (2) any risks that may adversely affect its
 completion .




5
Competition and economic Analysis
❚ Benefits of True High-Speed Rail on the                                          ❚ Users of Air Traffic Control Services
  Northeast Corridor
                                                                                     Determine who are the users of the components
    Determine the benefits of true high-speed rail in                                of the National Aviation System, their
    the Northeast Corridor .                                                         characteristics, and how usage of the system
                                                                                     contributes to congestion .
❚ Increases in Highway Construction Costs
                                                                                   ❚ Amtrak Quarterly Reports on Operational
    Determine whether current trends in                                              Savings
    construction costs represent structural changes,
    differ regionally, and are being adequately taken                                As mandated by Congress, we will issue
    into account in state planning processes .                                       quarterly reports to the House and Senate
                                                                                     Committees on Appropriations on our estimates
                                                                                     of the savings accrued as a result of operational
                                                                                     reforms instituted by Amtrak .

                                                                                   ❚ Amtrak Board of Directors

                                                                                     Determine the efficacy of Amtrak’s Board of
                                                                                     Directors’ roles, responsibilities, processes, and
                                                                                     relationship to senior management .

                                                                                   ❚ Small Communities Air Service
                                                                                     Development Program

                                                                                     Determine which strategies are most successful
                                                                                     in enhancing air service to small communities .

                                                                                   ❚ Public-Private Partnerships—Innovative
                                                                                     Financing
                                                        Photo Courtesy of AmtrAk




                                                                                     Investigate the conditions under which
                                                                                     public-private partnerships prove to be
                                                                                     beneficial to the development of transportation
                                                                                     infrastructure .




	    	                                                                                                   Work	Planned	and	in	Progress	 
Work Planned and in Progress (continued)


Financial and Information Technology
❚ Use of Contract Audit Services, DOT                   ❚ Computer Security and Controls over the
  Operating Administrations                               National Driver Registry (NDR)

  Determine whether DOT and its Operating                Determine whether: (1) personal identification
  Administrations are obtaining contract audit           information stored in the NDR can be accessed
  services as necessary and in accordance with           for unapproved use; (2) traffic violations
  policies, procedures, and acquisition regulations .    are promptly and accurately processed for
                                                         NDR reporting; (3) an adequate contingency
❚ Contractor Overhead and Compensation                   plan exists to ensure business continuity; and
  Under Grants                                           (4) risks associated with NDR system operations
                                                         are properly assessed, tested, and mitigated to
  Review the effectiveness and implementation            meet minimum Government security standards .
  of audit provisions in Section 307 of the
  National Highway System Designation Act               ❚ Volpe Center IT Security and Resource
  addressing audits of contracts awarded by states        Management Activities
  to engineering and design firms . Procedures
  include testing the allowability of compensation       Determine if: (1) Volpe information systems
  and other high overhead cost elements billed by        are properly accredited to support business
  these firms .                                          operations; (2) Volpe’s network infrastructure
                                                         and connection entry points are adequately
❚ Status Assessment of FAA’s Cost                        secured to protect the critical information
  Accounting System                                      assets; and (3) Volpe is leveraging departmental
                                                         information technology resources to maximize
  As required by FAA’s Reauthorization Act               cost savings .
  (AIR-21), perform a review of the status of FAA’s
  Cost Accounting System and assess eight specific
  areas covering FAA’s methods for calculating
  and assigning costs to users and whether those
  methods are reasonable .

❚ Spending Priorities for the Office of the
  Assistant Secretary for Administration

  Determine if the Office of the Assistant
  Secretary for Administration: (1) has adequate
  support for budget requests, including funds to
  operate the Working Capital Fund; (2) supports
  DOT operations commensurate with the office’s
  mission; and (3) properly accounts for Working
  Capital Fund resources .




56
❚ DOT FY 2007 and FY 2006 Financial                   ❚ Quality Control Review of FY 2007 FAA
  Statements                                            Financial Statements

    Render an opinion on the financial statements      Perform a quality control review of the audit
    and issue reports on internal controls and         by an independent public accounting firm
    compliance with financial-related laws and         and determine if the audit was performed in
    regulations .                                      accordance with applicable auditing standards .

❚ Quality Control Review of FY 2007                   ❚ Quality Control Review of FY 2007 FAA
  Highway Trust Fund Financial Statements               Franchise Fund Financial Statements

    Perform a quality control review of the audit      Perform a quality control review of the audit
    by an independent public accounting firm           by an independent public accounting firm
    and determine if the audit was performed in        and determine if the audit was performed in
    accordance with applicable auditing standards .    accordance with applicable auditing standards .




	    	                                                                    Work	Planned	and	in	Progress	 
Work Planned and in Progress (continued)

❚ Quality Control Review of FY 2007 NTSB               continuity plan for en-route centers and the
  Financial Statements                                 progress they have made on equipping the
                                                       backup facility .
 Perform a quality control review of the audit
 by an independent public accounting firm              Oversight of Independent Public
 and determine if the audit was performed in           Accountant’s (IPA) Review of FAA’s
 accordance with applicable auditing standards .       Enterprise Service Center As It Relates
                                                       to the Delphi Financial Management
❚ FY 2007 Federal Information Security
                                                       System
  Management Act Review
                                                       Contract with an IPA to conduct a review of
  Determine the effectiveness of DOT’s                 the DOT Enterprise Service Center as it relates
  information security program . Specifically,         to the Delphi Financial System, as well as
  we will review the DOT’s progress in: (1)            perform follow-up work .
  correcting security weaknesses identified
  previously in the air traffic control system; (2)   ❚ Implementation of the New DOT
  establishing a secure IT operating environment        Suspension and Debarment Order
  at DOT’s new Headquarters building; (3)
   meeting the minimum Government security             Evaluate the effectiveness of the
   standards to protect sensitive information          implementation of the new suspension and
   systems and data; and (4) implementing              debarment order and related policies and
   Earned Value Management to better monitor           procedures to ensure that only responsible
   major IT investment projects .                      persons participate in DOT programs .

 ❚ Air Traffic Control (ATC) Systems Security         ❚ Use of Award Fees Contracts Within DOT
   and Contingency Planning
                                                       Verify whether award fees are effectively
   Evaluate FAA’s methodology for identifying          designed and administered . Determine
   the differences between the baseline systems        whether: (1) award fees are reasonable;
   tested in the computer lab and the operational      (2) appropriate metrics are established to assess
   systems in the field and ensuring the               performance; and (3) payments are based on
   differences did not introduce vulnerabilities       assessments consistent with those metrics .
   to live ATC operations . We will also follow
   up on other concerns identified in previous        ❚ Quality Control Review of FY 2007 SLSDC
   audits including: (1) user authentication in         Financial Statements
    air traffic control systems; (2) physical and
    network security at en-route centers; (3) fire     Perform a quality control review of the audit
    protection at ATC network switching centers;       by an independent public accounting firm
    (4) remote access to field equipment; and          and determine if the audit was performed in
    (5) FAA’s solution for developing a business       accordance with applicable auditing standards .




58
        Statistical Performance data

        Summary of Performance
        Office of Inspector General
        October 1, 00 – March 1, 00
        (Dollars in Thousands)



        Reports Issued                                43

        Recommendations Issued                       169

        Congressional Testimonies                      8

        Total Financial Recommendations         $864,808

           — that funds be better used          $854,237

           — that questioned costs               $10,571

        Indictments                                   58

        Convictions                                   73

        Fines, Restitutions, and Recoveries   $61,294,216




	   	                                                  Charts	&	Tables	 
Audits
Completed OIG Reports
October 1, 00 – March 1, 00
(Dollars in Thousands) *

            Type of Review              Number of Reports        Number of        Questioned Costs **     Funds to be Put
                                                              Recommendations                              to Better Use


Internal Audits
   Performance/Attestation Audits              14                   71                            $0           $735,684
   Financial Audits                            7                    75                            $0           $118,553

Other OIG Internal Reports                     1                    0                             $0                  $0

Total Internal Audit Reports                   22                  146                            $0                  $0

Grant Audits
   Audits of Grantee Under
   Single Audit Act                            21                   23                      $10,571                   $0


TOTALS                                         43                  169                      $10,571           $854,237


* The dollars shown are the amounts reported to management . The actual amounts may change during final
  resolution .

** There were no recommendations for unsupported costs during the reporting period .


Department of Transportation programs and operations are primarily carried out by the Department’s
own personnel and recipients of Federal grants . Audits by DOT’s Office of Inspector General, as a result,
generally fall into three categories: internal audits of Departmental programs and operations; audits
of grant recipients; and other OIG reports . In addition, these statistics include audit work on National
Transportation Safety Board programs . The table above shows OIG’s results for the 6 months covered by
this report .



6
OIG Reports with Recommendations that Questioned Costs
October 1, 00 – March 1, 00
(Dollars in Thousands)

                                                            Number of Reports      Number of      Questioned Costs *
                                                                                Recommendations



    A.       For which no management
             decision had been made by the
             start of the reporting period                         25                 40               $62,335

    B.       Which were issued during
             the reporting period                                  11                 15               $10,571

             Totals (A+B)                                          36                 55              $72,906

    C.       For which a management
             decision was made during
             the reporting period                                  17                 27                 $9,952


             (i) dollar value of disallowed costs**                8                  13                 $2,741

             (ii) dollar value of costs not disallowed **          12                 18                 $7,216

    D.       For which no management
             decision had been made by the
             end of the reporting period                           21                 28              $62,953


* There were no recommendations for unsupported costs during the reporting period .

** Includes reports and recommendations where costs were both allowed and disallowed .




	        	                                                                                        Charts	&	Tables	 1
OIG Reports with Recommendations that Funds Be Put to Better Use
October 1, 00 – March 1, 00
(Dollars in Thousands)

                                                  Number of               Number of      Funds to be Put
                                                   Reports             Recommendations    to Better Use


A.    For which no management
      decision had been made by the
      start of the reporting period                   4                       6           $1,732,700

B.    Which were issued during
      the reporting period                            3                       6              $854,237

      Totals (A+B)                                    7                      12          $2,586,937

C.   For which a management
     decision was made during
     the reporting period                             2                       7              $653,553

     (i) dollar value of
         recommendations that were
         agreed to by management *                   2*                       5*             $402,553

     (ii) dollar value of
          recommendations that were
          not agreed to by management *              1*                       2*             $251,000

D.   For which no management
     decision had been made by the
     end of the reporting period                      5                       5            $1,933,384



* Includes reports and recommendations where costs were both allowed and disallowed .




62
OIG Reports Recommending Changes for Safety, Economy, or Efficiency
October 1, 00 – March 1, 00

                                                                  Number of Reports       Number of Recommendations



    A.       For which no management decision
             had been made by the start of the reporting period          30                         109

    B.       Which were issued during the reporting period               23                         148

             Totals: (A+B)                                               53                         257

    C.       For which a management decision
             was made during the reporting period *                      19                         151

    D.       For which no management decision
             had been made by the end of the reporting period *          36                         106



* Includes reports where management both made and did not make a decision on recommendations .




	        	                                                                                        Charts	&	Tables	 
Management Decisions Regarding OIG Recommendations
October 1, 00 – March 1, 00
(Dollars in Thousands)


                 Description                 Number of        Number of          Questioned     Funds to be Put
                                              Reports      Recommendations        Costs *        to Better Use


Unresolved as of 10/01/2006                     52               155              $62,335 ***     $1,732,700
Audits with Findings During Current Period      34               169              $10,571 ***      $854,237
Total to be Resolved                            86               324              $72,906 ***     $2,586,937

Management Decisions:

Audits Prior Period ‡                           18               61                    $9,764      $535,000
Audits Current Period ‡                         17               124                    $188       $118,553

Total Resolved                                  35               185                   $9,952         $653,553

Aging of Unresolved Audits: **

Less than 6 months old                          19               45               $10,383 ***      $735,684
6 months – 1 year                               8                18               $50,397 ***        $1,700
1 year – 18 months                              9                22                  $431                $0
18 months – 2 years                             6                17                   $21          $975,000
Over 2 years old                                13               37                $1,722          $221,000

Unresolved as of 03/31/07                       55               139              $62,953 ***     $1,933,384

* There were no recommendations for unsupported costs during this reporting period .

‡ Includes reports and recommendations where costs were both allowed and disallowed .

** Considered unresolved if management decisions have not been made on all report recommendations .

*** Rounding of dollars may affect total .


6
OIG Published Reports
October 1, 00 – March 1, 00

FEDERAL AVIATION ADMINISTRATION
Internal Audits: Performance/Attestation – 4 reports

    Report           Date                              Title                                  Focus of Report/
                                                                                             Recommendations



    AV-2007-014    12/13/06        Oversight of Airport Improvement             Heightened oversight of grant
                                   Program Hurricane Grants                     expenditures needed



    AV-2007-032    02/09/07        FAA Continues to Make Progress in            Progress needed in accurate facility-level
                                   Implementing Its Controller Workforce        planning and method for projecting
                                   Plan, but Further Efforts are Needed in      retirements
                                   Several Key Areas

    AV-2007-031    02/12/07        Joint Planning and Development Office:       Issues identified to enhance coordination
                                   Actions Needed to Reduce Risks With          between participants and reduce risk with
                                   the Next Generation Air Transportation       development and transition to the next
                                   System                                       system

    AV-2007-038    03/16/07        Review of Staffing at FAA’s Combined         Improved communication and
                                   Radar Approach Control and Tower             implementation of policies and
                                   with Radar Facilities                        procedures needed

Internal Audits: Financial –  reports

    QC-2007-006    11/13/06        Quality Control Review of the Audited        Unqualified opinion on financial
                                   Financial Statements for FY 2006–            statements
                                   Administrative Services Franchise Fund

    QC-2007-009    11/14/06        Quality Control Review of Audited Financial Qualified opinion on financial
                                   Statements for FY 2006 and FY 2005          statements



	      	                                                                                              Charts	&	Tables	 
Grant Audits: Audits of Grantee Under Single Audit Act –  reports

QC-2007-015      12/18/06     City of Syracuse, New York                  $124,549 questioned

QC-2007-021      01/18/07     Republic of Palau National Government       $236,007 questioned

QC-2007-023      01/25/07     County of Broome, New York                  Improve grantee oversight


QC-2007-024      01/25/07     Dallas/Fort Worth International Airport,    Improve grantee oversight
                              Texas
QC-2007-042      03/29/07     Cincinnati/Northern Kentucky                Improve grantee oversight
                              International Airport
QC-2007-043      03/29/07     City of Manchester, New Hampshire           Improve grantee oversight


FEDERAL HIGHWAY ADMINISTRATION
Internal Audits: Performance/Attestation –  reports

Report             Date                           Title                                 Focus of Report/
                                                                                       Recommendations



MH-2007-037      03/06/07     Opportunities to Free Up Unneeded           Put $10,684,135 to better use
                              FHWA Funds for Use in Hurricane
                              Recovery Efforts

MH-2007-039      03/27/07     Independence of Central Artery/             Actions taken to remove contractors
                              Tunnel Project Inspection Contractors       with independence issues

MH-2007-040      03/28/07     Value engineering in the Federal-Aid        Put $725,000,000 to better use
                              Highway Program


Internal Audits: Financial – 1 report

QC-2007-008      11/14/06     Quality Control Review of Audited Financial Unqualified opinion on financial
                              Statements for FY 2006 – Highway Trust      statement
                              Fund

66
Grant Audits: Audits of Grantee Under Single Audit Act –  reports

    QC-2007-013   12/07/06   Washington Metropolitan Area Transit         Improve grantee oversight
                             Authority, Washington, DC (also listed under
                             Federal Transit Administration

    QC-2007-019   12/18/06   State of Connecticut                        $6,500,000 questioned

    QC-2007-025   01/25/07   Athens-Clarke County, Georgia               $293,171 questioned


FEDERAL TRANSIT ADMINISTRATION
Grant Audits: Audits of Grantee Under Single Audit Act – 1 reports

    Report          Date                        Title                                 Focus of Report/
                                                                                     Recommendations



    QC-2007-013   12/07/06   Washington Metropolitan Area Transit         Improve grantee oversight
                             Authority, Washington, DC (also listed under
                             Federal Highway Administration)

    QC-2007-016   12/18/06   Massachusetts Bay Transportation Authority Improve grantee oversight


    QC-2007-017   12/18/06   Santa Clara Valley Transportation Authority, $2,365,103 questioned
                             California

    QC-2007-018   12/18/06   Southeastern Pennsylvania Transportation    Improve grantee oversight
                             Authority

    QC-2007-020   01/18/07   South Florida Regional Transportation       Improve grantee oversight
                             Authority

    QC-2007-022   01/25/07   County of Lackawanna Transit System         $47,922 questioned
                             Authority, Pennsylvania

    QC-2007-026   02/01/07   Northeast Illinois Regional Commuter        Improve grantee oversight
                             Railroad Corporation

	      	                                                                                       Charts	&	Tables	 
QC-2007-028      02/01/07   Orange County Transportation Authority,        Improve grantee oversight
                            California

QC-2007-033      02/21/07   Capital Area Transit System, Louisiana         $250,903 questioned

QC-2007-034      02/21/07   City of Everett, Washington                    $77,325 questioned

QC-2007-035      02/21/07   Antelope Valley Transit Authority, California $261,587 questioned

QC-2007-041      03/29/07   Lakeland Area Mass Transit District, Florida   $350,924 questioned


NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION
Internal Audits: Performance/Attestation –  reports

Report             Date                         Title                                   Focus of Report/
                                                                                       Recommendations



FI-2007-029      02/01/07   Inspector General Review of FY 2006            Conforms with the Office of National Drug
                            Drug Control Funds                             Control Policy Circular


MH-2007-036      03/05/07   National Highway Traffic Safety                Better implementation of strategies



NATIONAL TRANSPORTATION SAFETY BOARD
Internal Audits: Performance/Attestation –  reports

Report             Date                         Title                                   Focus of Report/
                                                                                       Recommendations



FI-2007-001      10/13/06   Information Security Program                   Continued management needed to
                                                                           correct weaknesses

FI-2007-003      11/01/06   Travel Card Program                            Internal controls need to be strengthened



68
Internal Audits: Financial – 1 report

    QC-2007-007   11/13/06     Quality Control Review of the Audited      Unqualified opinion on financial
                               Financial Statements for FY 2006 and FY    statements
                               2005


OFFICE OF THE SECRETARY OF TRANSPORTATION
Internal Audits: Performance/Attestation –  reports

    Report          Date                          Title                                 Focus of Report/
                                                                                       Recommendations



    FI-2007-002   10/23/06     Information Security Program               Controls need to be strengthened over air
                                                                          traffic control infrastructure and annual IT
                                                                          investments

    AV-2007-012   11/21/06     Follow-up Review: Performance of           Oversight and enforcement of air traveler
                               U.S. Airlines in Implementing Selected     consumer protection rules need to be
                               Provisions of the Airline Customer         improved
                               Service Commitment

    FI-2007-030   02/05/07     Emergency Transportation Services          Contracting practices must be improved
                               Contract: Lessons Learned from the 2005
                               Gulf Coast Hurricanes

Internal Audits: Financial –  reports

    FI-2007-010   11/15/06     Consolidated Financial Statements for      Qualified opinion on financial statements;
                               Fiscal Years 2006 and 2005                 put $118,553,000 to better use

    FI-2007-011   11/17/06     Special-Purpose Financial Statements for   Qualified opinion on financial statements
                               Fiscal Years 2006 and 2005

Other OIG Reports – 1 report

    PT-2007-004   11/15/06     Top Management Challenges                  Ten challenges identified

	      	                                                                                        Charts	&	Tables	 
SAINT LAWRENCE SEAWAY DEVELOPMENT CORPORATION
Internal Audits: Financial – 1 report


Report          Date                        Title                                  Focus of Report/
                                                                                  Recommendations



QC-2007-005   11/09/06   Quality Control Review of Audited Financial Unqualified opinion on financial
                         Statements for FY 2006 and FY 2005          statements




7
Other Audit Work Products
October 1, 00 – March 1, 00


In addition to providing a listing of each audit report issued to the Department and statistical tables on
the number of reports and recommendations issued, OIG completes other types of work products during
the semiannual period that contribute to the effective and efficient operations of the Department .

                             Type of Product                      Number of Products


                             Briefings and Presentations                 1

                             Formal Correspondence                        

                             Speaking Engagements/Speeches                1



Examples of Other Work Products completed during this reporting period include:

        •   A briefing by staff of the Office of Surface and Maritime Programs for staff of the House
            Transportation and Infrastructure Committee on the OIG’s oversight role on the
            Central Artery/Tunnel issues, including oversight of the tunnel reopening and the
            Stem to Stern Review . This review is an independent and comprehensive review of the
            soundness and near and long-term safety of the Central Artery/Tunnel Project .

        •   A briefing by staff of the Office of Surface and Maritime Programs for staff of the Senate
            Appropriations Committee, Subcommittee on Transportation, regarding cross-border
            trucking issues .

        •   A briefing by staff of the Office of Aviation and Special Programs for staff of the House
            Financial Services Committee on the circumstances surrounding the failure of air traffic
            control equipment in Southern California .

        •   A speech for the Air Traffic Control Association Annual Conference by the Deputy Inspector
            General discussing current and future challenges facing FAA in modernizing the National
            Airspace System .



	   	                                                                                     Charts	&	Tables	 1
Office of Inspector General Congressional Testimonies
October 1, 00 – March 1, 00


  Control No.       Date                           Subject                                      Before



CC-2007-018     01/30/07   Reauthorization of the Federal Railroad          Committee on Transportation and Infrastructure,
                           Safety Program                                   Subcommittee on Railroads, Pipelines, and
                                                                            Hazardous Materials
                                                                            U.S. House of Representatives
CC-2007-019     02/14/07   FAA’s FY 2008 Budget Request:                    Committee on Transportation and Infrastructure,
                           Key Issues Facing the Agency                     Subcommittee on Aviation
                                                                            U.S. House of Representatives
CC-2007-025     02/28/07   Amtrak’s FY 2008 Budget Needs                    Committee on Appropriations, Subcommittee on
                                                                            Transportation, Housing and Urban Development,
                                                                            and Related Agencies
                                                                            United States Senate
CC-2007-021     03/06/07   Top Management Challenges Facing the             Committee on Appropriations, Subcommittee on
                           Department of Transportation                     Transportation, Housing and Urban Development,
                                                                            and Related Agencies
                                                                            U.S. House of Representatives
CC-2007-026     03/08/07   Status of Safety Requirements for Cross-Border   Committee on Appropriations, Subcommittee on
                           Trucking with Mexico Under NAFTA                 Transportation, Housing and Urban Development,
                                                                            and Related Agencies
                                                                            United States Senate
CC-2007-029     03/13/07   Status of Safety Requirements for Cross-Border   Committee on Transportation and Infrastructure,
                           Trucking with Mexico Under NAFTA                 Subcommittee on Highways and Transit
                                                                            U.S. House of Representatives
CC-2007-034     03/21/07   FAA’s Financing Proposal                         Committee on Transportation and Infrastructure,
                                                                            Subcommittee on Aviation
                                                                            U.S. House of Representatives
CC-2007-035     03/29/07   Aviation Safety: FAA’s Oversight of Outsourced   Committee on Transportation and Infrastructure,
                           Maintenance Facilities                           Subcommittee on Aviation
                                                                            U. S. House of Representatives


72
Status of Unresoled Recommendations Oer  Months Old

                 CITED IN SEMIANNUAL REPORT FOR APRIL 1, 000 – SEPTEMBER 0, 000

    Contract Towers: Observations on FAA’s Study     AV-2000-079   04/12/00   Awaiting additional
    of Expanding the Program                                                  information from FAA

                 CITED IN SEMIANNUAL REPORT FOR OCTOBER 1, 001 – MARCH 1, 00

    Acquisition of the Weather and                   AV-2002-084   02/28/02    FAA is working
    Radar Processor                                                            to resolve open issues

                 CITED IN SEMIANNUAL REPORT FOR APRIL 1, 00 – SEPTEMBER 0, 00

    Status Report on FAA’s Operation                 AV-2003-048   07/23/03   FAA is working
    Evolution Plan                                                            to resolve open issues

    FAA Needs to Reevaluate STARS Costs and          AV-2003-058   09/09/03   FAA is working
    Consider Other Alternatives                                               to resolve open issues

                 CITED IN SEMIANNUAL REPORT FOR APRIL 1, 004 – SEPTEMBER 0, 004

    Highway-Rail Grade Crossing                      MH-2004-065   06/16/04   FHWA, FRA, and FTA are working to
    Safety Program                                                            resolve open issues

                 CITED IN SEMIANNUAL REPORT FOR OCTOBER 1, 004 – MARCH 1, 00

    2003 Status Assessment of Cost Accounting        FI-2005-010   11/17/04   FAA is working to resolve open
    System and Practices                                                      issues

    Managing Risk in the Federal-Aid                 MH-2005-012   11/19/04   FHWA is working to resolve open
    Highway Program                                                           issues

    Terminal Modernization: FAA Needs to Address     AV-2005-016   11/23/04   FAA is working to resolve open
    its Small, Medium, and Large Sites Based on                               issues
    Cost, Time, and Capability

    Government of the United States Virgin Islands   QC-2005-020   12/14/04   FHWA is working with Grantee to
                                                                              resolve open issues
	      	                                                                                      Charts	&	Tables	 
Puerto Rico Highway Transportation              QC-2005-039   01/04/05   FHWA and FTA are working with
Authority                                                                Grantee to resolve open issues

Inactive Obligations                            FI-2005-044   01/31/05   FAA is working to resolve open
                                                                         issues

IFHWA Needs to Capture Basic Aggregate Cost     MH-2005-046   02/15/05   FAA is working to resolve open
and Schedule Data To Improve its Oversight of                            issues
Federal-Aid Funds

Greater Cleveland Regional Transit              QC-2005-053   03/15/05   FTA is working with Grantee to
                                                                         resolve open issues


              CITED IN SEMIANNUAL REPORT FOR APRIL 1, 00 – SEPTEMBER 0, 00

Walker River Paiute Tribe                       QC-2005-056   05/12/05   FHWA is working with Grantee to
                                                                         resolve open issues

Status of FAA’s Major Acquisitions: Cost Growth AV-2005-061   05/26/05   FAA is working to resolve open
and Schedule Delays Continue to Stall Air                                issues
Traffic Modernization

Safety Oversight of an Air Carrier              AV-2005-062   06/03/05   FAA is working to resolve open
Industry in Transition                                                   issues

FAA’s En Route Modernization Program is on      AV-2005-066   06/29/05   FAA is working to resolve open
Schedule But Steps Can Be Taken to Reduce                                issues
Future Risks

Chicago’s O’Hare Modernization Plan             AV-2005-067   07/21/05   FAA is working to resolve open
                                                                         issues

Analysis of Cost Savings on Amtrak’s Long-      CR-2005-068   07/22/05   FRA is working to resolve open
Distance Services                                                        issues


7
                  CITED IN SEMIANNUAL REPORT FOR OCTOBER 1, 00 – MARCH 1, 00

    Central Puget Sound Regional Transit Authority           QC-2006-004   11/02/05   FTA is working with Grantee to
                                                                                      resolve open issues

    Highway-Rail Grade Crossing Inspections, Accident        MH-2006-016   11/28/05   FRA is working to resolve open
    Reporting, and Investigations                                                     issues

    Central Puget Regional Transit Authority                 QC-2006-020   12/07/05   FTA is working with Grantee to
                                                                                      resolve open issues

    Followup Audit Review of Air Traffic                     AV-2006-021   12/07/05   FAA is working to resolve open
    Controller Training                                                               issues

    Sunset Empire Transportation District                    QC-2006-023   12/07/05   FTA is working with Grantee to
                                                                                      resolve open issues

    Chicago Transit Authority                                QC-2006-026   12/07/05   FTA is working with Grantee to
                                                                                      resolve open issues

    Air Carriers Use of Non-Certificated Repair Facilities   AV-2006-031   12/15/05   FAA is working to resolve open
                                                                                      issues

    Greenville Transit Authority                             QC-2006-034   02/02/06   FTA is working with Grantee to
                                                                                      resolve open issues

    Safety of Highway Bridges                                MH-2006-043   03/21/06   FHWA is working to resolve open
                                                                                      issues




	       	                                                                                            Charts	&	Tables	 
CITED IN SEMIANNUAL REPORT FOR APRIL 1, 00 – SEPTEMBER 0, 00

Use of Airport Revenues by the Greater Orlando       AV-2006-056   08/03/06   FAA is working to resolve open
Aviation Authority                                                            issues

State of Mississippi                                 QC-2006-058   08/29/06   NHTSA is working with Grantee to
                                                                              resolve open issues

State of Minnesota                                   QC-2006-059   08/29/06   FHWA is working with Grantee to
                                                                              resolve open issues

State of Montana                                     QC-2006-064   08/29/06   NHTSA and FHWA are working with
                                                                              Grantee to resolve open issues

Mississippi DOT Katrina Emergency Repair Contracts   MH-2006-065   09/06/06   FHWA is working to resolve open
                                                                              issues

City of El Paso, Texas                               QC-2006-066   09/07/06   FTA is working with Grantee to
                                                                              resolve open issues

Republic of Palau National Government                QC-2006-069   09/14/06   FAA is working with Grantee to
                                                                              resolve open issues

State of Hawaii, Department of Transportation,       QC-2006-075   09/28/06   FHWA is working with Grantee to
Highways Division                                                             resolve open issues




76
Application of Audit Project Hours by Operating Administration
October 1, 00 – March 1, 00




NOTES:
•   Resources shown for OST include time
    spent performing audits of the DOT
    Consolidated Financial Statements (which
    includes all Operating Administrations),
    Follow-up on Airline Customer Service
    Commitment, and DOT’s Information
    Security Program .
•   Resources shown for FRA include time
    spent performing audits of the National
    Railroad Passenger Corporation .
•   There were no resources expended on the
    Maritime Administration and Surface
    Transportation Board during the reporting
    period .
•   Resources shown as “Other” were
    expended on the National Transportation
    Safety Board, Pipeline and Hazardous
    Materials Safety Administration, and
    St . Lawrence Seaway Development
    Corporation and totaled less than
    1 percent each .




Required Statements for Semiannual Report

The Inspector General Act requires the Semiannual Report to carry explanations if, during the reporting
period, departmental management significantly revised management decisions stemming from an
audit . OIG follows up on audits reported in earlier semiannual reports . During this reporting period,
departmental management did not report any significant revisions to management decisions .

The Act also requires descriptions of any significant decisions that departmental management made
regarding an audit with which OIG disagrees . When the reporting period closed, there were no such
significant decisions with which OIG disagreed .


	   	                                                                                   Charts	&	Tables 
Investigations
Judicial and Administratie Actions
October 1, 00 – March 1, 00


                       Employee Terminations                           3
                       Employee Suspensions                            2
                       Employee Reprimands                             4
                       Employee Resignations/Retirements               4
                       Employee Counseling                             7
                       Debarments/Suspensions                         30
                       Decertified - State                            15

                       Indictments                                    58
                       Convictions                                    73
                       Years Sentenced                                62
                       Years Probation                               103
                       Years Supervised Release                       67
                       Hours of Community Service                   5575
                                          FINANCIAL IMPACT
                       Fines:                                  $1,813,850
                       Restitution/Civil Judgments:           $20,518,970
                       Federal Recoveries:                     $9,565,266
                       Administrative Recoveries:             $29,336,130
                       State Recoveries                           $60,000
                       Total                                 $61,294,216




78
Proﬁle of All Pending Inestigations as of March 1, 00
                                                                                    Types of Cases
                                                          Number      Contract/    Employee    Aviation   Motor       HazMat    Other
                                                          of Cases   Grant Fraud   Integrity    Safety    Carrier
                                                                                                          Safety



    Federal Aviation Administration                         165         40            30         80          0           8        7
    Federal Highway Administration                          151         136            7          0          0           0        8
    Federal Railroad Administration                          11          2            3          0           0           4        2
    Federal Transit Administration                          29          29             0          0          0           0        0
    Maritime Administration                                  4           1             2          0          0           0        1
    Federal Motor Carrier Safety Administration              71          3             9          0         36          17        6
    Office of the Secretary                                  14          3            6          0           0           0        5
    Pipeline and Hazardous Materials Safety                  19          0            1          0           0          18        0
    Administration
    Research and Innovative Technologies Administration      1           1            0           0         0           0         0
    National Highway Traffic Safety Administration           7           3            0           0         1           0         3

    Totals                                                 4         1                     0                   4       

    Percent of Total:                                     100%         4%          1%        1%        %          10%       %

Application of Inestigatie Project Hours by Priority Area
October 1, 00 – March 1, 00




	      	                                                                                                            Charts	&	Tables 
Application of Inestigatie Project Hours by Operating Administration
October 1, 00 – March 1, 00




During the 6-month period covered by this report, 69 cases were opened and 172 were closed, leaving
a pending caseload of 473 . In addition, 105 cases were referred for prosecution, 79 were accepted for
prosecution, and 34 were declined . As of March 31, 2007, 30 cases were pending before prosecutors .




0	 Semiannual Report to Congress
             2006 Awards and Recognition



        O
                    n November 29, 2006, a ceremony was held in
                    Washington, DC to recognize Office of Inspector General
                    employees for their contributions over the preceding year .
        Transportation Secretary Mary E . Peters and Inspector General
        Calvin L . Scovel III announced the names of OIG employees who
        were being honored by the Secretary at a separate ceremony . The
        Inspector General also recognized OIG employees receiving awards
        for their accomplishments during the preceding year, as well as
        those employees who were honored by the President’s Council on
        Integrity and Efficiency .




	   	                                                                     Awards	&	Recognition	 1
                    Secretarial Awards and recognition
                  Award for Meritorious Achievement
  This award is given by the Secretary in recognition of meritorious service to DOT and the Federal
Government, and for exceptional achievement which substantially contributed to the accomplishment
                                of DOT’s mission or major programs.
                                      Theodore L. Doherty III
                                        Special Agent-In-Charge
                                         JR-1, Cambridge, MA
                                              Kevin Dorsey
                                             Program Director
                                          JA-10, Washington, D.C.

                                Award for Excellence
   This award is granted to employees who have achieved outstanding performance in all aspects of
                            their work, warranting special commendation.
                                        Nancy J. Martemucci
                                                Staff Assistant
                                           J-2, Washington, D.C.
                                          Constance C. Wiley
                                               Staff Assistant
                                          JA-10, Washington, D.C.

                     Global Limo Bus Fire Investigative Team
This team demonstrated outstanding performance in their investigation of the Hurricane Rita bus fire .
OIG
Ann M. Kessel, Senior Special Agent             Ronald Havelaar          U .S . Attorney’s Office,
Charles V. Miller, Senior Special Agent         Jose Vela                Southern District of Texas
Peggy Moskaluk, Senior Special Agent            Jose Villarreal          John B. Kinchen
Floyd D. Sherman, Senior Special Agent          Eduardo Moreno           Juan F. Alanis
                                                Oscar J. Garza
FMCSA                                           Juan Jimenez
Duane C. Baker                                  Gustavo Marroquin
Edwin Demming                                   Miguel Martinez
Patrick Gorena                                  Arturo Prado
                                                Rigoberto Salinas

82
                 Inspector General Special honors
                    U.S. Active Duty Military
        OIG employees called to active military duty during the past 12 months.
                                 Scott L. Williams
                                 Peggy Moskaluk
                                Ramon Sanchez, Jr.
                                  Max D. Smith
                                  Scott B. Stokes
                                William L. Swallow

                  Career Service Recognition
        OIG employees who will have attained 30 or more years of Federal service
                               as of the end of FY 2006.
                               Carlton D. Richmond
                                Greggory S. Bond
                                Deborah J. Bryant
                                 Joyce K. Mayeda
                                  Harry Schaefer




	   	                                                                   Awards	&	Recognition	 
                                 Inspector General Awards
                                          Team Awards
      This award is granted to an OIG office, team, or workgroup whose performance exemplifies
    teamwork and whose efforts contribute greatly toward the mission, goals, and operations of the
                                     Office of Inspector General.


            Joint Planning and Development Office (JPDO) Team
This team made significant contributions in addressing complex policy issues and cutting edge
technologies associated with the Next Generation Air Traffic Management System .
                                  Matthew E. Hampton, Program Director
                                    Fidel Cornell, Jr., Program Manager
                                  Arthur A. Shantz, Sr., Technical Advisor
                                     Coletta A. Treakle, Senior Analyst
                                      Arnett Sanders, Senior Auditor
                                          Joseph J. Hance, Analyst
                                    Kathleen A. Huycke, Writer-Editor
                                         Victoria J. Smith, Analyst

                                      Pipeline Safety Team
This team performed outstanding work in support of two congressional hearings on pipeline safety and an audit
report on integrity threats to hazardous liquid pipelines .
                                    Scott K. Macey, Program Director
                                  Darren L. Murphy, Program Director
                                  Petra Swartzlander, Senior Statistician
                                   Jerrold R. Savage, Project Manager
                                    Greggory S. Bond, Senior Analyst
                                   Kathleen A. Huycke, Writer-Editor
                                       Kim P. Tieu, Senior Auditor
                                        Michael P. Dunn, Auditor
                                 Deborah A. Kloppenburg, Senior Auditor
                                         Earl G. Kindley, Auditor
                                     Susan M. Zimmerman, Auditor
                                         Curtis M. Dow, Analyst



8
          Security of the FRA’s Computer Systems Network Team
This team performed in an outstanding manner in conducting the audit of FRA’s computer network
security .
                               Dr. Ping Zhong Sun, Program Manager
                                Aaron B. Nguyen, Computer Scientist
                                 Michael P. Fruitman, Writer-Editor

     George Washington University National Crash Analysis Center
                           Audit Team
This team analyzed internal control weaknesses that resulted in over $1 .6 million in embezzlement and
overcharging on federally-funded cooperative agreements at George Washington University’s National
Crash Analysis Center .
                                  Terrence J. Letko, Program Director
                                 Kenneth G. Prather, Project Manager
                                  Michael P. Fruitman, Writer-Editor
                                  Robert G. Anderson, Senior Auditor
                                  Kathleen A. Huycke, Writer-Editor
                                   Thomas C. Wiener, Senior Analyst
                                       Jill L. Cottonaro, Analyst
                                       Jelilat A. Ojodu, Auditor
                                      Allison M. Horkan, Auditor
                                  Thomas K. Lehrich, Chief Counsel
                              David J. Barnes, Communications Director
                                       Omer G. Poirier, Counsel

    Mississippi Hurricane Katrina Emergency Repair Contracts Team
The team consistently exceeded performance expectations by identifying and supporting findings that led
to recommendations for improving the FHWA’s oversight of scarce Federal-aid highway funds when states
need to award emergency repair contracts .
                                  Brenda R. James, Program Director
                                 Peter F. Babachicos, Project Manager
                                 William R. Lovett, Jr., Senior Auditor
                                  Marvin E. Tuxhorn, Senior Auditor
                                       Brett M. Kramer, Analyst
                                 Seth B. Kaufman, Associate Counsel
                                   Amy J. Berks, Associate Counsel
                                  Harriet E. Lambert, Writer-Editor
                                   Clayton W. Boyce, Writer-Editor


	    	                                                                            Awards	&	Recognition	 
           Audit of Motor Carrier Safety Improvement Act Team
This team demonstrated superior performance in its assessment of millions of records on safety
inspections and compliance reviews performed by the FMCSA and assessed whether the agency was
fulfilling its mandate, as set forth by Congress in 1999 .
                                 Joseph W. Come, Program Director
                                  Kerry R. Barras, Project Manager
                                William E. Savage, Senior IT Specialist
                                Christopher T. Brothers, Senior Analyst
                                   David W. Brown, Senior Analyst
                                   John M. Hannon, Senior Analyst
                                  Harriet E. Lambert, Writer-Editor
                                    Amitra J. Mamdouhi, Analyst
                                      Calvin L. Moore II, Analyst
                                Katherine G. Ovalle, Associate Counsel
                                      Farrin Tamaddon, Analyst
                                  Thomas K. Lehrich, Chief Counsel

                         Airline Industry Performance Team
This team performed in an outstanding manner in reporting on the challenges experienced by the
industry and their impact on airlines, consumers, the National Aerospace System, and other stakeholders .
                                   Leila D. Kahn, Program Director
                                  Ralph W. Morris, Senior Economist
                                  Stephen G. Smith, Project Manager
                                 Petra Swartzlander, Senior Statistician
                                       Gina C. Ronzello, Analyst
                                    Meredith C. McDaniel, Analyst




86
                      Award for Superior Achievement
  This is the highest award granted by the Inspector General. It recognizes performance of assigned
duties in such an exemplary manner as to inspire others, demonstration of unusual initiative or skill in
     the development of new or improved work methods and procedures, and notable authorship.
                                           Ned E. Schwartz
                                        Special Agent-In-Charge
                                            JRI-2, New York

                                           Terrence J. Letko
                                           Program Director
                                        JA-20, Washington, D.C.


                    Exceptional Civilian Service Award
    This is the second-highest award granted by the Inspector General, recognizing performance that is
      exceptional among peers, extraordinary results, and other exemplary performance as deemed
                                        by the Inspector General.
                                         Jim H. Crumpacker
                                           Program Director
                                        JA-10, Washington, D.C.

                                           Daniel R. Raville
                                            Project Director
                                        JA-10, Washington, D.C.

                                           Erika S. Vincent
                                          Senior Investigator
                                        JA-20, Washington, D.C.

                                         Dr. Ping Zhong Sun
                                            Project Manager
                                        JA-20, Washington, D.C.

                                           Leigh R. Hinson
                                          Criminal Investigator
                                             JI-1, Cambridge



	    	                                                                            Awards	&	Recognition	 
      Marguerite Christensen Award for Excellence
                  in Administration
This is the third-highest award in the OIG. It recognizes professionalism, technical excellence, and
         dedication in providing administrative support to the Office of Inspector General.
                                       Sharon N. Caboga
                                     Procurement Specialist
                                            JM-10


                        Manager of the Year Award
This award is granted to managers who demonstrate exemplary contributions toward achieving the
           mission and goals of the OIG, and management of personnel and resources.
                                      Richard A. Kaplan
                                        Program Director
                                      J-2, Washington, D.C.

                                        Brenda R. James
                                        Program Director
                                     JA-40, Washington, D.C.

                                          John W. Long
                                     Special Agent-In-Charge
                                          JRI-4, Atlanta




88
                          Supervisor of the Year Award
    This award is granted to supervisors who demonstrate exemplary contributions toward achieving the
                mission and goals of the OIG, and management of personnel and resources.
                                            Tina B. Nysted
                                            Project Manager
                                             JA-10, Atlanta

                                           Charles A. Ward
                                            Project Manager
                                        JA-10, Washington, D.C.

                                           Nathan J. Custer
                                            Project Manager
                                        JA-20, Washington, D.C.

                                          Leonard F. Meade
                                            Project Manager
                                        JA-20, Washington, D.C.

                                        Joseph M. Zschiesche
                                   Assistant Special Agent-In-Charge
                                            JR1-6, Ft. Worth

                                           Joan M. Becker
                                            Project Manager
                                        JA-40, Washington, D.C.

                                         Joseph B. McGovern
                                   Assistant Special Agent-In-Charge
                                           JRI-1, Cambridge




	     	                                                                         Awards	&	Recognition	 
                    Employee of the Year Award
This award is granted to employees who demonstrate dedication and special effort that exceed
      performance expectations and contribute significantly to the mission and goals of
                              the Office of Inspector General.
        Amanda D. Barton                                     Aron O. Wedekind
            Senior Analyst                                         Engineer
        JA-2, Washington, D.C.                              JA-40, Washington, D.C.

          Joseph J. Hance                                      Frank G. Italia
               Analyst                                        Senior Special Agent
       JA-10, Washington, D.C.                                 JRI-1, Cambridge

          Kevin F. George                                      David S. Brooks
            Senior Analyst                                     Attorney-Advisor
            JA-10, Atlanta                                  JRI-3, Washington, D.C.

           Sharon J. Ayers                                   Daniel M. Helzner
           Senior Auditor                                     Senior Special Agent
       JA-20, Washington, D.C.                                  JRI-2, New York

       Michael P. Fruitman                                     David J. Hoefler
            Writer-Editor                                     Senior Special Agent
       JA-20, Washington, D.C.                                  JRI-5, Chicago

        Marvin E. Tuxhorn                                    Efferem I. Poynter
            Senior Analyst                                    Senior Special Agent
           JA-40, Ft. Worth                                   JRI-9, San Francisco

         William R. Lovett                                    Steven A. DeFazio
           Senior Auditor                                     Senior Special Agent
          JA-40, Cambridge                                       JRI-4, Miami

          Gina C. Ronzello                                    Steven N. Albino
               Analyst                                        Senior Special Agent
       JA-50, Washington, D.C.                                JRI-9, San Francisco




9
              Paul W. Kimbrough, Sr. Award for Public and
                         Community Service
    This award is granted to an OIG employee who exhibits exceptional dedication to public/community
    service, either associated with a DOT or other Federally-sponsored program or initiative, or privately
                                        within his or her community.
                                              Clayton W. Boyce
                                                 Writer-Editor
                                            JA-40, Washington, D.C.


              Administrative Professional of the Year Award
          This award is granted to administrative or clerical employees who provide outstanding support
                                    to the success of the organization or office.
                                               Joyce K. Mayeda
                                            Administrative Assistant
                                              JA-10, San Francisco

                                                 LaRue Burks
                                                   Secretary
                                                JA-40, Ft. Worth

                                            Florence H. Scheiner
                                                   Secretary
                                                JA-20, Baltimore

                                             Fannie C. Robinson
                                       Investigative Program Technician
                                                 JRI-9, Cerritos




	     	                                                                              Awards	&	Recognition	 1
                         New Employee Award
This award is granted to new Federal employees who excel in performance of assignments and
         demonstrate significant initiative in developing and furthering their skills.
            Susan Glenn                                      Atul D. Darooka
            Senior Analyst                           Information Technology Specialist
       JA-10, Washington, D.C.                            JA-20, Washington, D.C.

        Ebonique L. Poteat                                   Leslie G. Mitchell
               Analyst                                            Auditor
       JA-10, Washington, D.C.                            JA-20, Washington, D.C.

          Arthur B. Jacobs                                 Michael Masoudian
                Analyst                                           Analyst
         JA-10, San Francisco                             JA-40, Washington, D.C.

           Nica Raingsey                                    Floyd D. Sherman
              Auditor                                       Senior Special Agent
            JA-10, Seattle                                    JRI-6, Ft. Worth

          Travis R. Wiley                                     Daniel C. Arce
               Analyst                               Information Technology Specialist
            JA-10, Atlanta                                JM-10, Washington, D.C.

     Christopher M. Cullerot
  Information Technology Specialist
       JA-20, Washington, D.C.




92
        President’s Council on Integrity and efficiency Awards
         June Gibbs Brown Career Achievement Award
                                          Kenneth M. Mead
The President’s Council on Integrity and Efficiency (PCIE) honored former DOT Inspector General
Kenneth M . Mead at its annual awards ceremony in October 2006 . Mr . Mead devoted over 30 years of
Federal service toward improving program management, delivery, and results, both at the Government
Accountability Office and the OIG, where he served as Inspector General from June 1997 until
his retirement in February 2006 .


                          Award for Excellence–Audit
                     Controls Over Emergency Disaster Relief
                         Transportation Services Team
This team demonstrated exceptional efforts in identifying weaknesses and recommending improvements
to the internal controls over the DOT’s emergency disaster relief transportation services contract, which
resulted in one of the largest recoveries of Federal funds in the aftermath of Hurricane Katrina .
                                Jim H. Crumpacker, Program Director
                                   Daniel R. Raville, Project Director
                                    Susan L. Bader, Project Manager
                                Angela D. McCallister, Project Manager
                                  Francis E. Danielski, Senior Auditor
                                 Kimberly A. Leading, Senior Analyst
                                       Kiesha M. Butler, Auditor

              Non-Certificated Repair Facilities Oversight Team
This team displayed outstanding performance and tenacious efforts in disclosing a significant area of
aircraft maintenance where both oversight and training were lacking .
                         David A. Dobbs, AIG for Aviation & Special Programs
                                   Lou E. Dixon, Program Director
                                   Tina B. Nysted, Project Manager
                                  Kathleen A. Yutzey, Senior Analyst
                                      Curt L. Boettcher, Analyst
                                      Curtis E. Gelber, Analyst



	   	                                                                              Awards	&	Recognition	 
           Federal Aviation Administration Telecommunications
                       Infrastructure Program Team
This team demonstrated superior efforts in identifying significant risks early in the deployment of the
FAA’s Telecommunications Infrastructure Program .
                                    Kevin Dorsey, Program Director
                                   Charles A. Ward, Project Manager
                                   Katrina F. Knight, Senior Auditor
                                     Holly A. Engebretsen, Auditor
                                         Won K. Jim, Auditor
                                      Ebonique L. Poteat, Analyst
                                       Eileen F. Lynch, Analyst
                                   Kathleen A. Huycke, Writer-Editor
                                       Erik A. Phillips, Analyst

                       RESULTS Procurement Program Team
This team exemplified outstanding work in demonstrating how FAA could save tens of millions of dollars
and improve its approach to procuring support services .
                                  Terrence J. Letko, Program Director
                                  Leonard F. Meade, Project Manager
                                    Joann K. Adam, Project Manager
                                  Heidi E. Leinneweber, Senior Analyst
                                   Lawrence N. Heller, Senior Auditor
                                   Michael P. Fruitman, Writer-Editor
                                  Timothy D. Roberts, Senior Auditor
                                      Keyanna L. Frazier, Auditor
                                       Stacie A. Seaborne, Analyst
                                        Narja T. Hylton, Auditor




9
                                      Bridge Safety Team
This team performed outstanding work auditing the FHWA’s oversight of structurally deficient bridges on
the National Highway System .
                              Michael E. Goldstein, Program Director
                                   Jeffrey Ong, Project Manager
                                  Stephen Gruner, Senior Analyst
                                   Carl Christian, Senior Analyst
                                    Joseph Tschurilow, Auditor
                                    Farrin Tamaddon, Analyst
                                    Rodolfo E. Perez, Engineer
                                 Clayton W. Boyce, Writer-Editor
                                 Harriet E. Lambert, Writer-Editor
                                  Petra Swartzlander, Statistician
                                   Aron O. Wedekind, Engineer

        Award for Excellence–Information Technology
                     Air Traffic Control System Security Team
This team performed in-depth reviews of systems used to direct air traffic, manage traffic flow, and
maintain field surveillance and communications equipment .
                                Edward A. Densmore, Program Director
                                  Nathan J. Custer, Project Manager
                                  Dr. Ping Z. Sun, Project Manager
                                   James F. Mallow, Senior Auditor
                                Henry S. Lee, Senior Computer Scientist
                                Mitchell N. Balakit, Senior IT Specialist




	   	                                                                              Awards	&	Recognition	 
           Award for Excellence–Multiple Disciplines
                                Household Goods Team
This team exemplified great professionalism and expertise when OIG was asked to respond to inquiries
from the Senate Commerce, Science, and Transportation Committee regarding new consumer protections
from rogue household goods movers .
                         Richard C. Beitel, Jr., Deputy AIG for Investigations
                                Joseph W. Come, Program Director
                                Gerard J. Sheeran, Project Manager
                              Christopher T. Brothers, Senior Analyst
                                  David W. Brown, Senior Analyst
                                    Constance B. Hardy, Analyst
                                     Farrin Tamaddon, Analyst
                                   Carlton H. Hamilton, Auditor
                                  Clayton W. Boyce, Writer-Editor
                                  Gary Walker, Program Director
                              Steven A. DeFazio, Senior Special Agent
                                 Peter Y. Kim, Senior Special Agent
                                     Omer G. Poirier, Attorney
                                     Regan K. Maund, Analyst




96
        Award for Excellence–Administrative Support
                             OIG Recruitment Video Team
This team was instrumental in creating, coordinating, and developing a recruitment video to showcase
the broad range of employment opportunities offered at the OIG .
James C. Vincent, Training Administrator               Laverne Stubbs, Secretary
Dr. Ping Z. Sun, Project Manager                       Wendy M. Harris, Senior Auditor
Angela M. Thorpe, Training Specialist                  Joseph T. O’Neill, IT Specialist
Dennis M. Ocampo, Special Agent                        Vonya C. Matthews, Investigative
Velma Crawford, Training Specialist                      Program Technician
Ernest Eigenbrode, Project Manager                     Christopher M. Cullerot, IT Specialist
Lou E. Dixon, Program Director                         Rosemarie T. Tolson, Senior Analyst
Arnie Holscher, Senior Auditor                         Betty A. Krier, Economist
Earl C. Hedges, Program Director                       Jean Duval, Writer-Editor
Andrea J. Singletary, Writer-Editor                    Vasily G. Gerasimov, IT Specialist
Akilah A. Boston, Analyst                              Marisol Vasquez, IT Specialist
Monica L. Zink, Special Agent                          Aaron B. Nguyen, Computer Scientist
Aron O. Wedekind, Engineer                             Eileen Vidal-Codispot, Senior Special Agent
Lisa T. Mackall, Auditor                               Martha A. Morrobel, IT Specialist
Brenda R. James, Program Director


                   Award for Excellence–Investigation
                                Global Limo Bus Fire Team
This team demonstrated superior investigative talent following the September 25, 2005, bus fire that
resulted in the death of 23 nursing home residents .
                                   Ann M. Kessel, Senior Special Agent
                                 Charles V. Miller, Senior Special Agent
                                  Peggy Moskaluk, Senior Special Agent
                                 Floyd D. Sherman, Senior Special Agent
                                        Duane C. Baker, FMCSA
                                      Edwin W. Demming, FMCSA
                                        Eduardo Moreno, FMCSA
                                         Oscar J. Garza, FMCSA
                                  Juan F. Alanis, Assistant U .S . Attorney
                                John B. Kinchen, Assistant U .S . Attorney




	   	                                                                              Awards	&	Recognition	 
                  Award for Excellence–Investigations
                                Operation Safe Road Team
This team demonstrated superior legal and investigative expertise in the investigation of former Illinois
Governor George Ryan, Sr ., and his long-time personal associate, Lawrence Warner, who on April 17,
2006, were found guilty in U .S . District Court in Chicago on charges of racketeering conspiracy, mail and
tax fraud, and false statements .
                                  Ned E. Schwartz, Special Agent-In-Charge
                                      Gary Walker, Senior Special Agent
                                     Thomas K. Lehrich, Chief Counsel
                                           Omer G. Poirier, Counsel
                                      Kerry R. Barras, Project Manager
                                     Gerard J. Sheeran, Project Manager
                                    David J. Hoefler, Senior Special Agent
                                   Christopher T. Brothers, Senior Analyst
                                    Kevin C. Shirley, Senior Special Agent
                                        Maurice Toval, Senior Auditor

                     Award for Excellence–Special Act
The Transportation Oversight Providers Network: www.TOPnet.gov
In late 2004, the OIG brought together a diverse group of state, local, and Federal oversight principals
to solicit feedback on a prototype website and generate ideas for its development . A consensus emerged
for development and implementation of the web-based system appropriately named the Transportation
Oversight Providers network (TOPnet) .
                                 Charles H. Lee, Jr., AIG for Investigations
                            Richard C. Beitel, Jr., Deputy AIG for Investigations
                           Jim H. Crumpacker, Deputy AIG for Hurricane Relief
                                    Michael S. Ralph, Program Director
                                Barbara L. Barnet, Special Agent-In-Charge
                                      Peter Y. Kim, Senior Investigator
                                  Rosemarie T. Tolson, Senior IT Specialist
                                   Carlos A. Vazquez, Senior Investigator
                                 Eileen Vidal-Codispot, Senior Investigator
                                    Scott A. Florcsk, Senior IT Specialist
                                        Daniel C. Arce, IT Specialist
                                           David R. Uhl, Auditor
                                      Ashley B. Strickland, Investigator
                                        Michael Masoudian, Analyst
                                        Jason B. McDuffee, Analyst

98
                                      Other recognition
                 Thomas K. Lehrich                           William L. Owens
              Special Recognition Award                    Letter of Appreciation
        U .S . Department of Transportation              U .S . Department of Labor

                  Edwin J. Wynn                            Douglas Shoemaker
        Atlanta IG Council Agent of the Year             Letter of Congratulations
        Atlanta Inspector General’s Council          Deputy Secretary of Transportation

                 Daniel M. Helzner                         Letter of Appreciation
               Letter of Appreciation                    U .S . Department of Labor
             U .S . Department of Labor
                                                             Letter of Appreciation
                  Rebecca C. Leng               St . Lawrence Seaway Development Corporation
                Achievement Award
                                                             Robert J. Stanek
          Federal Aviation Administration
                                                         Letter of Congratulations
               Richard M. McGrade                    Deputy Secretary of Transportation
               Letter of Appreciation
                                                        FISMA Audit Team, JA-20
             U .S . Department of Labor
                                                      Cyber Security Excellence Award
               Letter of Appreciation                   Secretary of Transportation
            U .S . Department of Justice

                Michael J. Purcell
            Certificate of Appreciation
              U .S . Attorney’s Office




	   	                                                                  Awards	&	Recognition	 
                                        In Memoriam . . .

    This semiannual period was marked by the deaths of two OIG employees who made a significant
    impact on the organization . Human Resources Specialist Debra Lyn Banagan and Hotline
    Complaint Center Investigator John Heires each touched the hearts of the people they worked with
    and will be deeply missed .

    Debra Lyn Banagan

   Lyn was a part of the OIG even                     a special place in her heart for the Office of
   before the agency opened                           Investigations . Lyn’s devotion to “her agents”
   its doors . As a human                             gained her appreciation and special recognition
   resources professional                             from the Office of Investigations .
   at the U .S . Department                               Lyn is also fondly remembered by audit
   of Housing and Urban                               staff, especially members of the Office of
   Development, Lyn was asked                         Aviation and Special Programs Audits (JA-10) .
   to help organize the DOT                           After 9/11, Lyn shepherded the San Francisco
   OIG . She subsequently joined                      staff as they were reassigned to a separate audit
   the OIG on March 23, 1980, and served under        office concentrating on security issues (JA-60) .
   each of the six Inspectors General appointed       After OIG’s oversight of transportation
   since the establishment of the office .            security was passed to the new Department of
       Her colleagues remember her as a “go-to        Homeland Security OIG, Lyn helped with the
   person” who knew the ins and outs of the Office    transition of JA-60 back into JA-10 .
   of Personnel Management (OPM) regulations .            As a testament to the respect OIG
   On the rare occasion that Lyn did not know         management had for Lyn’s abilities, she
   the answer to a personnel-related question, she    managed the Senior Executive Program,
   would know exactly who to call to get the needed   which included helping the selected candidates
   information . She was referred to as the “HR       through the OPM’s certification process .
   historian” because of the depth of her knowledge
   of both the regulations and the OIG .                  Lyn’s impact on OIG was recognized in
                                                      2005, when the Inspector General presented
       Lyn was the consummate HR professional         her with the Marguerite Christensen Award
   and always had a way of putting people at          for Excellence in Administration . That
   ease with a smile and a joke . She had a caring    accolade doesn’t begin to describe the loss felt
   personality, a sense of empathy for employees,     by the entire DOT OIG community . Lyn’s
   and an ability to bring people together .          professionalism, her institutional knowledge,
       While Lyn provided human resources             and her sense of humor made her a joy to
   services to multiple offices in the OIG, she had   work with .



100	 Semiannual Report to Congress
    John Heires

    John joined OIG as an                              information and determine an appropriate level
    investigator in 2001 and                           of agency response .
    was assigned to the                                    John strongly believed in making a positive
    Hotline Complaint Center .                         difference in the lives of the traveling and
    In this important capacity,                        taxpaying public . During his tenure, John
    John logged, researched,                           developed a strong passion for handling Hotline
    and helped investigate                             complaints concerning potential compromises
    numerous Hotline concerns                          in transportation safety, especially those
    reported by public citizens                        involving truck and bus safety .
    on wide-ranging matters, such as potential
    vulnerabilities in transportation security             He addressed dozens of such complaints,
    systems, alleged violations of highway, aviation   interfacing with safety regulators in the
    and rail safety standards, and suspected fraud     Department on appropriate compliance and
    involving the Department’s multi-billion           enforcement remedies, leading to the successful
    dollar spending programs for transportation        resolution of numerous citizen concerns .
    infrastructure .                                       John’s intellect earned him a reputation
        John’s background as a U .S . Army officer     within the OIG for providing superior
    in the transportation field and as an evaluator    information and data analysis . He had many
    with the GAO made him a good fit for the           friends and colleagues in the OIG and we all
    position, which required both sensitivity          miss him greatly .
    to callers’ concerns and the ability to distill




	   	                                                                                     In	Memoriam 101
                                mISSIOn And OrGAnIzATIOn

The Office of Inspector General for the Department of Transportation was created by Congress through
the Inspector General Act of 1978 (Public Law 95–452) . The Act sets several goals for OIG:

        n    To conduct or supervise objective audits and investigations of the Department’s programs
             and operations;

        n    To promote economy, effectiveness, and efficiency within the Department;

        n    To prevent and detect fraud, waste, and abuse in the Department’s programs;

        n    To review existing and proposed laws or regulations affecting the Department and make
             recommendations about them;

        n    To keep the Secretary of Transportation and Congress fully informed about problems in
             departmental programs and operations .

                                OIG Fy 2007 PrOGrAm-level reSOurCeS
                                         TOTAl: $71,617,000
OIG is divided into two major
units and four support units .
The major units are the Office
of the Principal Assistant
Inspector General for Auditing
and Evaluation and the Office
of Assistant Inspector General
for Investigations . Each has
headquarters staff and field staff .
The support units are the
Office of Legal, Legislative and
External Affairs; the Office of
Human Resources; the Office of
Financial, Administrative and
Information Technology
Management; and the Office of
Quality Assurance Reviews/
Internal Affairs .
10	 Semiannual Report to Congress
	
                                                                     U.S. Department of Transportation




	
                                                                        Office of Inspector General


                                                                                     Inspector General




                                                                                          Deputy
                                                                                     Inspector General
                                                                                     Associate Deputy
                                                                                     Inspector General




                                                                                           Principal                                           Assistant Inspector General
                   Assistant Inspector General
                                                                               Assistant Inspector General for                                  for Legal, Legislative, and
                        for Investigations
                                                                                    Auditing & Evaluation                                            External Affairs




                       Executive Director        Assistant Inspector General   Assistant Inspector General       Assistant Inspector General   Assistant Inspector General
                        Washington D.C.                 for Aviation &         for Financial & Information              for Surface &               for Competition &
                        Field Operations          Special Program Audits            Technology Audits                Maritime Programs             Economic Analysis




                                                                                      Deputy Assistant                Deputy Assistant
                                                                                     Inspector General               Inspector General
                                                                                for Financial Management               for Surface &
                                                                                          Audits                     Maritime Programs




Organization	10
                                                                                                   CONTACTS

            Inspector General
            Calvin L . Scovel III  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 366-1959

            Deputy Inspector General
            Todd J . Zinser  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 366-6767

            Associate Deputy Inspector General
            Theodore P . Alves  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366-1992

            Assistant Inspector General for Legal, Legislative, and External Affairs
            Brian A . Dettelbach  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366-8751

            Principal Assistant Inspector General for Auditing and Evaluation
            David A . Dobbs  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 366-1427

            Assistant Inspector General for Investigations
            Charles H . Lee, Jr .  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 366-1967

            Executive Director for Washington Investigative Operations
            Rick Beitel  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 366-1972

            Assistant Inspector General for Aviation and Special Programs Audits
            Robert E . Martin  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 366-0500

            Assistant Inspector General for Financial and Information Technology Audits
            Rebecca C . Leng . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 366-1488

            Deputy Assistant Inspector General for Financial Management Audits
            Mark Zabarsky . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366-2001

            Assistant Inspector General for Surface and Maritime Programs
            Kurt Hyde . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366-5630

            Deputy Assistant Inspector General for Surface and Maritime Programs
            Rebecca Batts  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 493-0331

            Assistant Inspector General for Competition and Economic Analysis
            David Tornquist . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366-9970

104	 Semiannual Report to Congress
                         ABBREVIATIONS

        AF-OSI   Air Force Office of Special Investigations
        AICPA    American Institute of Certified Public Accountants
        AIP      Airport Improvement Program
        AIR-21   Aviation Investment and Reform Act for the
                 21st Century
        AAAE     American Association of Airport Executives
        ASAP     Aviation Safety Action Programs
        ASDE-X   Airport Surface Detection Equipment-Model X
        ATC      Air Traffic Control
        ATO      Air Traffic Organization
        ATOS     Air Transportation Oversight System
        BTS      Bureau of Transportation Statistics
        CDLIS    Commercial Drivers License Information System
        CDL      Commercial Drivers License
        CFO      Chief Financial Officer
        CID      Criminal Investigations Division
        CIO      Chief Information Officer
        DBE      Disadvantaged Business Enterprise
        DCAA     Defense Contract Audit Agency
        DCIS     Defense Criminal Investigative Service
        DHS      Department of Homeland Security
        DOJ      Department of Justice
        DOT      Department of Transportation
        EPA      Environmental Protection Agency
        FAA      Federal Aviation Administration
        FBI      Federal Bureau of Investigation
        FHWA     Federal Highway Administration
        FISMA    Federal Information Security Management Act
        FMCSA    Federal Motor Carrier Safety Administration
        FRA      Federal Railroad Administration
        FTA      Federal Transit Administration
        FTI      FAA Telecommunications Infrastructure
        FY       Fiscal Year
        GAO      Government Accountability Office
        HAZMAT   Hazardous Material
        HTF      Highway Trust Fund
        IG       Inspector General
        IRB      Investment Review Board

	   	                                                                 Abbreviations	10
            IRS                      Internal Revenue Service
            IT                       Information Technology
            JPDO                     Joint Planning and Development Office
            MARAD                    Maritime Administration
            MCSIA                    Motor Carrier Safety Improvement Act
            MOU                      Memorandum of Understanding
            MTA                      Metropolitan Transportation Authority
            NAFTA                    North American Free Trade Agreement
            NATCA                    National Air Traffic Controllers Association
            NAS                      National Airspace System
            NCIS                     Naval Criminal Investigative Service
            NDR                      National Driver Register
            NHTSA                    National Highway Traffic Safety Administration
            NTSB                     National Transportation Safety Board
            OA                       Operating Administration
            OCIO                     Office of Chief Information Office
            OIG                      Office of Inspector General
            OMB                      Office of Management and Budget
            OPM                      Office of Personnel Management
            OSI                      Office of Special Investigations
            OST                      Office of the Secretary of Transportation
            PCIE                     President’s Council on Integrity and Efficiency
            PHMSA                    Pipeline and Hazardous Materials Safety Administration
            QCR                      Quality Control Review
            RITA                     Research and Innovative Technology Administration
            RSPA                     Research and Special Programs Administration
            SAFETEA-LU               Safe, Accountable, Flexible, Efficient Transportation
                                     Equity Act: A Legacy for Users
            SAS-70                   Statement on Auditing Standards Number 70
            SafeStat                 Safety Status Measurement System
            SLSDC                    St . Lawrence Seaway Development Corporation
            TEA-21                   Transportation Equity Act for the 21st Century




10	 Semiannual Report to Congress
